<html>
<title> - THE FISCAL YEAR 2010 BUDGET FOR THE DIRECTORATE FOR SCIENCE AND TECHNOLOGY, THE OFFICE OF HEALTH AFFAIRS, AND THE DOMESTIC NUCLEAR DETECTION OFFICE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  THE FISCAL YEAR 2010 BUDGET FOR THE 

 DIRECTORATE FOR SCIENCE AND TECHNOLOGY, THE OFFICE OF HEALTH AFFAIRS, 

                  AND THE DOMESTIC NUCLEAR DETECTION 

                                 OFFICE

=======================================================================


                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING

                        THREATS, CYBERSECURITY,

                       AND SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2009

                               __________

                           Serial No. 111-22

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
52-240                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

                 Yvette D. Clarke, New York, Chairwoman
Loretta Sanchez, California          Daniel E. Lungren, California
Laura Richardson, California         Paul C. Broun, Georgia
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                      Jacob Olcott, Staff Director
       Dr. Chris Beck, Senior Advisor for Science and Technology
                         Daniel Wilkins, Clerk
               Coley O'Brien, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Emerging 
  Threats, Cybersecurity, and Science and Technology.............     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Emerging Threats, Cybersecurity, and Science and Technology.     2

                               Witnesses

Mr. Bradley I. Buswell, Acting Under Secretary, Science and 
  Technology Directorate, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Jon Krohmer, Acting Assistant Secretary and Chief Medical 
  Officer, Office of Health Affairs, Department of Homeland 
  Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Charles R. Gallaway, Acting Director, Domestic Nuclear 
  Detection Office:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                                Appendix

Questions Submitted by Chairwoman Yvette D. Clarke for Bradley I. 
  Buswell, Acting Under Secretary, Science and Technology 
  Directorate, Department of Homeland Security...................    39
Questions Submitted by Ranking Member Daniel E. Lungren for 
  Bradley I. Buswell, Acting Under Secretary, Science and 
  Technology Directorate, Department of Homeland Security........    45
Questions Submitted by Honorable Paul C. Broun for Bradley I. 
  Buswell, Acting Under Secretary, Science and Technology 
  Directorate, Department of Homeland Security...................    47
Questions Submitted by Chairwoman Yvette D. Clarke for Jon 
  Krohmer, Acting Assistant Secretary and Chief Medical Officer, 
  Office of Health Affairs, Department of Homeland Security......    48
Questions Submitted by Ranking Member Daniel E. Lungren for Jon 
  Krohmer, Acting Assistant Secretary and Chief Medical Officer, 
  Office of Health Affairs, Department of Homeland Security......    51
Questions Submitted by Chairwoman Yvette D. Clarke for Charles R. 
  Gallaway, Acting Director, Domestic Nuclear Detection Office...    53
Questions Submitted by Ranking Member Daniel E. Lungren for 
  Charles R. Gallaway, Acting Director, Domestic Nuclear 
  Detection Office...............................................    56


    THE FISCAL YEAR 2010 BUDGET FOR THE DIRECTORATE FOR SCIENCE AND 
  TECHNOLOGY, THE OFFICE OF HEALTH AFFAIRS, AND THE DOMESTIC NUCLEAR 
                            DETECTION OFFICE

                              ----------                              


                         Tuesday, June 9, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Emerging Threats, Cybersecurity, and 
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:11 p.m., in 
Room 311, Cannon House Office Building, Hon. Yvette D. Clarke 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Clarke, Lujan, Lungren, Broun, and 
Austria.
    Ms. Clarke [presiding]. The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
the fiscal year 2010 budget for the Directorate for Science and 
Technology, the Office of Health Affairs, and the Domestic 
Nuclear Detection Office.
    Good afternoon.
    I welcome our witnesses today and thank them for their 
service to our country.
    I will keep my comments brief this afternoon so we can get 
to the questioning period.
    We are here today to discuss the President's fiscal year 
2010 budget request for the Science and Technology Directorate, 
the Office of Health Affairs, and the Domestic Nuclear 
Detection Office, three critical components of the homeland 
security mission.
    We have watched all three of these offices grow over the 
years. Some have come far in their maturation process. Others 
have some work left to do.
    Along the way, this committee has offered praise and 
criticism of the performance of these offices, as well as 
recommendations for improvement.
    It is our duty and obligation to do so. But never forget 
that in spite of our occasional disagreements, we are all on 
the same team, working toward the same goals.
    We find ourselves at a critical time in the Department's 
history. This is particularly true for each of the offices you 
represent. This year, each of your offices faces one 
significant question that strikes at the heart of its mission 
area.
    For S&T, will new leadership keep the IPT process and 
division of R&D funding established by the previous under 
secretary?
    For DNDO, are the benefits gained from deploying ASP worth 
the money?
    For health affairs, should the office expand beyond its 
critical role as a policy shop and become involved in 
operational activities?
    Each is a difficult question to answer. Fortunately, you 
will not have to answer it alone. In the weeks ahead, new 
leadership teams will be in place. We hope that they will reach 
out to this committee to resolve these and other questions.
    Today, I ask that your testimony and responses to the 
Members' questions provide the committee with some early 
answers about the direction that each of your offices will 
take.
    For its own part, the committee will soon be considering 
authorization language that pertains to some of the issues that 
we will discuss today.
    I also anticipate holding additional hearings on some of 
these matters.
    These efforts are designed to fulfill the Department's 
mission of protecting the American people, and I look forward 
to working with each of you in achieving that goal.
    Thanks to you and to the thousands of men and women serving 
at the Department for the work that you do.
    The Chairwoman now recognizes the Ranking Member, Mr. 
Lungren of California, of the subcommittee for an opening 
statement.
    Mr. Lungren. Thank you very much, Chairwoman Clarke.
    I could not agree more about the important role of science 
and technology in achieving the Department's mission of 
securing our homeland.
    A strong science and technology portfolio helps us 
understand the emerging threats and how to identify, counter, 
and mitigate them.
    Better technology expands our screening capabilities and 
frees our agents to focus their efforts where they are most 
needed to improve our security. Technology also helps us in 
consequence management so we are better prepared to respond to 
a natural disaster or terrorist incident.
    The S&T directorate is requesting $968.4 million in fiscal 
year 2010. I believe that is about a 3.8 percent increase over 
the 2009 funding levels. I hope that this funding level is 
sufficient to maintain our technical superiority in science and 
technology.
    I would like to compliment the S&T directorate for adopting 
the new strategic approach to better identify, enable, and 
transition new capabilities to your science and technology 
customers and to thereby improve homeland security.
    This new approach creates customer-led capstone integrated 
product teams in 13 functional areas. These integrated product 
teams allows the directorate to identify the highest priority 
needs and allocate resources to those programs that support the 
priorities established by the DHS customers.
    I believe this is a welcomed management improvement for all 
companies attempting to develop technology solutions for our 
homeland security needs.
    I would like to highlight for a moment a pending project in 
S&T's borders and maritime division, which includes building, 
demonstrating, and transitioning the first phase of improved 
capabilities for detecting the semisubmersible self-propelled 
vessels.
    Last year, I was privileged to work with then Senator Joe 
Biden and others to enact the new criminal statute which allows 
the Coast Guard to seize the operators of these South American 
drug-running vessels and prosecute them, even if the vessel is 
scuttled and the drug evidence is lost.
    As we know, they are very difficult vessels to spot and 
capture in open waters and any technology that improves 
detection will help us stop these drug vessels from delivering 
their deadly cargo into the United States.
    I note that the Washington Post had a front page article on 
this this week in which they indicated that, not only is this 
capable of bringing drugs into this country, but could possibly 
be a delivery system for terrorists and weapons of mass 
destruction.
    So it is a priority, because we realize, with our past 
experience, how difficult it has been for us to identify these 
semisubmersible self-propelled vessels.
    I am disappointed to see that no new funding for the 
national biodefense architecture is being requested and that 
only $1 million was appropriated from the $2 million that was 
requested in 2009.
    The Federal Government lacks, in my judgment, an 
overarching biodefense strategy, in spite of spending $50 
billion over the last 8 years on biodefense.
    I just happened to look down and see the national 
biodefense architecture, NBA. Maybe if we paid as much 
attention to this NBA as we do the other NBA, we would be 
further along and the costs would be appropriate to the 
challenges that we have.
    I think we need a better understanding and coordination of 
these enormous Government biodefense expenditures.
    In regard to the fiscal year 2010 DNDO budget request, I am 
concerned that two of the most critical programs to protect our 
citizens from the gravest threat, a nuclear attack, are facing 
technical difficulties and funding shortages.
    The Chairwoman has already made reference to the ASP 
program. I would like to make reference to it, too, because as 
we know, it is designed to improve our U.S. radiation detection 
by identifying radiological materials and limiting false alarms 
at land, air, and sea ports.
    These machines are undergoing final testing before the 
homeland security secretary must certify their performance and 
approve their purchase.
    So while it has been much delayed, I am hopeful that the 
ASP certification process will ensure significant improvement 
in our future radiation portal monitoring efforts.
    Now, let me make it clear, I am not suggesting that they be 
certified if they can't be certified. What I am hoping is that 
with all the investment we have made, with all the practice 
that we have done, that we have reached that point where 
certification can be made and we can utilize them in ways that 
we have envisioned in the past.
    The securing of cities initiative is not being funded in 
fiscal year 2010. I know you have heard from some people about 
this, including the ranking Republican on the full committee.
    The funding decrease is the result of the 3-year New York 
City pilot project, which concluded. The objective of this 
initiative, as I understand it, is to prevent an RAD or NUC 
attack on high risk metropolitan areas by enhancing the 
regional capabilities to detect and interdict radiological 
threats.
    Although remaining 2009 funds, as I understand it, will 
continue the STC funding into 2010, the STC future will depend 
solely on new funding from the city.
    I believe that it was important for my Ranking Member for 
us to mention this, and I would hope that we would take a 
serious look at it.
    So, Madam Chairwoman, as important as this hearing is, I 
would hope the Majority will work to produce an authorization 
bill this year for the entire Homeland Security Department.
    I want to thank the three gentlemen that are before us for 
their service to the country and their future service to the 
country.
    I thank you, Madam Chairwoman, for having this hearing.
    Ms. Clarke. Other Members of the subcommittee are reminded 
that under the committee rules, opening statements may be 
submitted for the record.
    I would like to thank my colleagues for participating in 
today's hearing on the fiscal year 2010 budget.
    I want to welcome our panelists at this time.
    Mr. Brad Buswell is the acting under secretary of the 
Science and Technology Directorate. Welcome.
    Dr. John Krohmer is the acting secretary and chief medical 
officer for the Office of Health Affairs. We welcome you.
    To Dr. Chuck Gallaway, the acting director of the Domestic 
Nuclear Detection Office. Welcome.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I know ask you to introduce yourself and summarize your 
testimony for 5 minutes, beginning with Mr. Buswell.

   STATEMENT OF BRADLEY I. BUSWELL, ACTING UNDER SECRETARY, 
  SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Buswell. Thank you very much and good afternoon, 
Chairwoman Clarke, Ranking Member Lungren, and other 
distinguished Members of the committee.
    I am honored to appear before you here today in my acting 
role as under secretary for science and technology.
    My real title is deputy under secretary, and, as you said, 
we will have some new leadership hopefully in place in a few 
weeks, and I will go back to being the deputy as opposed to the 
acting under secretary.
    I am delighted to be here to update the committee on the 
progress of the Science and Technology Directorate and 
highlight the President's budget request for fiscal year 2010 
and tell you how I think that that will further our effort.
    First, let me say that I am grateful for the immediate and 
strong leadership of Secretary Napolitano. Over the past 
months, she has consistently emphasized the importance of 
science and technology in improving the effectiveness and 
efficiency of all of our missions across the Department.
    I value the opportunity that her support represents and 
accept the accompanying responsibility.
    I am also very appreciative of the leadership of this 
committee in support of the directorate's endeavors. The 
Informed Council of Committee Members and Staff has been 
critical to the Department's success and in positioning the S&T 
directorate for success in the near term and in the future.
    The committee is familiar with the directorate's efforts 
over the past 2 years to reorganize and restructure the 
research portfolio and the business operations in order to 
expedite the delivery of technology to our customers.
    I am proud to report that these efforts have been 
successful and the directorate is delivering products across 
the spectrum of homeland security missions.
    As the Ranking Member mentioned, we are successfully using 
our maturing 12 capstone integrated product teams to identify 
the high priority technology needs of our operating components, 
and have added a 13th integrated product team focused on the 
needs of the State and local first responders.
    The fiscal year 2010 budget request includes $12 million in 
support of this 13th IPT.
    Within the innovation portfolio operated by Homeland 
Security Advanced Research Projects Agency, HSARPA, we are 
demonstrating exciting innovative solutions to homeland 
security challenges.
    This budget request includes an $11 million increase in the 
innovation portfolio over last year's appropriation in order to 
maintain the momentum of this exciting portfolio and allow us 
to have a couple of new starts.
    I think, having proven its value, I am specifically asking 
for this committee and the Congress' support in sustaining that 
request for this budget item.
    The budget request also includes a substantial increase in 
the investment and air cargo screening, research in support of 
TSA's statutory screening mandate, and other research to 
protect against the use of improvised explosive devices in mass 
transit and other settings.
    Additionally, this budget request includes a $37 million 
request for cybersecurity research and development, which is 
nearly triple the budget request from only 3 years ago.
    So in conclusion, Madam Chairwoman, I want to say, again, 
that I am honored to be here. I am also honored to serve with 
the highly professional scientists and technologists and other 
professionals that support them in our shared mission of 
delivering technological capabilities to the homeland security 
enterprise, to defend our Nation and our freedom.
    I am looking forward to working with the committee to 
ensure the continued success in both the near term and the long 
term.
    I thank you for the opportunity to appear.
    [The statement of Mr. Buswell follows:]
                Prepared Statement of Bradley I. Buswell
                              June 9, 2009
                              introduction
    Good Morning, Chairwoman Clarke, Ranking Member Lungren, and 
distinguished Members of the committee. I am honored to appear before 
you today to update you on the progress of the Department of Homeland 
Security's (DHS) Science and Technology Directorate (S&T Directorate) 
and discuss the fiscal year 2010 President's budget request. This 
request keeps us on track to provide future technological capabilities 
to both the operating components of DHS and our Nation's first 
responders.
    I am grateful for the immediate and strong leadership of Secretary 
Napolitano and Deputy Secretary Lute. They are committed to the mission 
of the Department: protecting the Nation from all threats and promoting 
a culture of preparedness. The Secretary has also testified to the 
importance of greater use of science and technology in improving our 
capabilities to accomplish that mission. I am pleased to report that 
the S&T Directorate has been successful in improving our Nation's 
capabilities across the extremely diverse homeland security mission 
set.
    I am also very appreciative of the leadership of the Congress and 
its bipartisan support of the Directorate's endeavors. I am grateful 
for the engaged and positive relationship we enjoy. The informed 
counsel of committee Members and that of their staffs has been 
invaluable to the Department's efforts to position the S&T Directorate 
for accountability, tangible results, and success--both today and for 
the future.
    The committee is familiar with the Directorate's efforts over the 
past 2 years to reorganize its structure, research portfolio, and 
business operations in order to expedite the delivery of cutting-edge 
technology. I am proud to report that these efforts have been 
successful and that the S&T Directorate is fully focused on fulfilling 
both near-term and long-term technological capability needs. I will 
update the committee on the status of the S&T Directorate's personnel 
and processes and then highlight the major initiatives of the 
President's fiscal year 2010 budget request.
                successful turnaround--people & process
People
    I am honored to serve with the many talented scientists, engineers, 
and other professionals who work to develop technologies that secure 
our homeland and defend our freedoms. The S&T Directorate has seen 
significant improvement in work force morale over the past 2 years. 
This is best highlighted by the results of the 2008 Federal Human 
Capital Survey, which indicate the progress we have made to improve the 
Directorate's management and performance. The 2008 results demonstrate 
dramatic improvement for S&T since the 2006 survey, and indicate that 
the S&T Directorate is in line with the Federal Government as a whole.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I am pleased with the results of our efforts over the past 2 years, 
and I remain committed to further improvement.
Process
    Basic Research. The S&T Directorate's basic research portfolio 
addresses long-term research and development needs in support of DHS 
mission areas. This research has the potential to lead to paradigm 
shifts in the Nation's homeland security capabilities through 
investment in our universities, Government laboratories, and the 
private sector. Basic Research is 23 percent of the S&T Directorate's 
budget request.
    Innovation. Responsible for funding the research and development of 
homeland security technologies to ``support basic and applied homeland 
security research to promote revolutionary changes in technologies that 
would promote homeland security; advance the development, testing and 
evaluation, and deployment of critical homeland security technologies; 
and accelerate the prototyping and deployment of technologies that 
would address homeland security vulnerabilities,'' the Directorate's 
Homeland Security Advanced Research Programs Agency (HSARPA) has 
implemented a transparent process for identifying, prioritizing, and 
selecting new projects, and has used this process in selecting the 
fiscal year 2010 ``new start'' projects. The $11 million increase in 
the fiscal year 2010 request over last year's enacted appropriation 
will allow us to fund these new starts, and I hope the committee will 
support this priority.
    During the past year, HSARPA completed several demonstrations of 
prototypes that had been developed over the previous 2 years. Those 
demonstrations included:
  <bullet> Future Attributes Screening Technology (FAST);
  <bullet> Magnetic Visibility (MAGVIZ);
  <bullet> Resilient Electric Grid (REG);
  <bullet> Levee Strengthening and Damage Mitigation;
  <bullet> Tunnel Detection;
  <bullet> Biometric Detector;
  <bullet> Resilient Tunnel.
    The most important process that the Directorate uses is the one 
that puts us in direct contact with our customers: The Capstone 
Integrated Product Team (IPT) process. It ensures that we are 
identifying our customers' highest priority needs and providing near-
term capabilities to address them. These Capstone IPTs engage DHS 
customers, acquisition partners, S&T Division Heads, and end-users to 
align our research, development, and product transition activities to 
their requirements and acquisition activities. The science and 
technology solutions that are the outcome of this process, referred to 
as Enabling Homeland Capabilities, draw upon technologies that can be 
developed and delivered to our customer acquisition programs within 3 
years. As with the Innovation Portfolio, the under secretary presents 
recommended new start programs to the DHS Technology Oversight Group 
(TOG), chaired by the Deputy Secretary, for approval.
    Our experience over the last year has led us to maintain 12 
Capstone IPT areas--Information Sharing/Management; Border Security; 
Chemical Defense; Biological/Agricultural Defense; Maritime Security; 
Cyber Security; Transportation Security; Counter IED; Cargo Security; 
People Screening; Infrastructure Protection; and Incident Management--
and add a thirteenth to directly support first responders. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The S&T Directorate officially announced the 13th Capstone IPT in 
February 2009 at the DHS S&T West Coast Stakeholder Conference in 
Bellevue, Washington, which focused on First Responder technology needs 
and existing technological gaps.
    Within the various First Responder communities there are several 
mechanisms currently employed to research and identify First Responder 
technical requirements. The Capstone IPT will help formalize these 
requirements while leveraging the relationships that the S&T 
Directorate has developed with the International Community, within the 
Interagency, and at our Universities.
    In order to accomplish this, the IPT will formally establish an 
Emergency Services Sector Research, Development, Test, and Evaluation 
(RDT&E) Working Group comprised of representatives from the National 
Protection Programs Directorate (NPPD), the Office of Infrastructure 
Protection (OIP), the Emergency Services Sector Coordinating Council 
(SCC) and the Emergency Service Sector Government Coordinating Council 
(GCC). This group will serve as the primary engine for identifying 
technology gaps in the Law Enforcement, Fire, Emergency Management, and 
Emergency Medical Services areas. Because Federal Advisory Committee 
Act (FACA) rules apply when communicating RDT&E requirements to the 
Capstone IPT, a Government-only unit comprised of members from the 
Assistant Secretary for State and Local Law Enforcement, the Office of 
Health Affairs, the Fire Administrator, and the GCC will officially 
represent the First Responder community to the IPT.
    The Capstone IPT process for First Responders is similar to that of 
the other 12 IPTs. As technology gaps or technology needs are 
identified by the RDT&E Working Group, the S&T Directorate will first 
examine the DHS S&T and FEMA investment portfolio to determine if the 
requested technology already exists or if R&D is currently underway in 
the interest area. The S&T Directorate requested $12 million to develop 
technologies to address capability gaps identified by the First 
Responder IPT. This program will test technologies, assess them for 
usability, and commercialize them to make the technology solutions 
available across all First Responder communities.
                           product is job one
    Delivery of technological capabilities to our customers is the 
reason the S&T Directorate exists. In the past year, the S&T 
Directorate has had numerous products which we have transitioned to our 
customers in the Capstone IPT capability areas, and we are on track to 
continue this performance in the future.

----------------------------------------------------------------------------------------------------------------
                                                      Fiscal Year 2009    Fiscal Year 2010          Delta
                                                             (E)                (PB)        --------------------
        Program, Project, and Activity (PPA)        ----------------------------------------
                                                       FTP      ($000)     FTP      ($000)     FTP      ($000)
----------------------------------------------------------------------------------------------------------------
Management and Administration......................      257   $132,100      274   $142,200       17    $10,100
                                                    ------------------------------------------------------------
Borders and Maritime...............................  .......     33,050  .......     40,181  .......      7,131
Chemical and Biological............................  .......    200,408  .......    206,800  .......      6,392
Command, Control and Interoperability..............  .......     74,890  .......     80,264  .......      5,374
Explosives.........................................  .......     96,149  .......    120,809  .......     24,660
Human Factors......................................  .......     12,460  .......     15,087  .......      2,627
Infrastructure and Geophysical.....................  .......     75,816  .......     44,742  .......    (31,074)
Innovation.........................................  .......     33,000  .......     44,000  .......     11,000
Laboratory Facilities..............................      124    161,940      130    154,500        6     (7,440)
Test and Evaluations, Standards....................  .......     28,674  .......     28,674  .......          0
Transition.........................................  .......     28,830  .......     45,134  .......     16,304
University Programs................................  .......     50,270  .......     46,000  .......     (4,270)
Homeland Security Institute........................  .......      5,000  .......  .........  .......     (5,000)
                                                    ------------------------------------------------------------
Research, Development, Acquisition and Operations..      124    800,487      130    826,191        6     25,704
                                                    ============================================================
S&T Total..........................................      381    932,587      404    968,391       23     35,804
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2010 President's budget request (PBR) ($968 
million) represents a 3.8 percent increase over the fiscal year 2009 
Enacted ($933 million) to support the following R&D initiatives:
    Command Control and Interoperability.--DHS requested a $5.4 million 
increase to Cyber Security research and development applied towards 
cyber security priorities identified in the Comprehensive National 
Cybersecurity Initiative (CNCI). Specifically, this effort will develop 
enduring leap-ahead technologies to secure the Nation's critical 
information infrastructure (energy, transportation, telecommunications, 
banking and finance, and others) and networks.
    Innovation.--The S&T Directorate requested an $11 million increase 
to fund homeland security R&D that could lead to significant technology 
breakthroughs that would greatly enhance DHS operations including 
technologies for protecting levees, mass transit tunnels, and the 
electric grid in Manhattan, NY; detecting and distinguishing between 
harmful and benign liquids at airport checkpoints; and detecting a 
person's intent to cause harm based on physiological and behavioral 
cues.
    Transition.--DHS proposed an increase of $16.3 million to the 
Transition PPA. Within this increase $12 million is dedicated to 
develop and design technologies to address capability gaps identified 
by Federal, State, local, and Tribal First Responders in the First 
Responder Capstone Integrated Product Team (IPT). This program will 
test technologies, assess them for usability, and commercialize them to 
make the technology solutions available across all First Responder 
communities.
    Explosives.--The S&T Directorate requested an increase of $24.7 
million, to address critical capability gaps in detecting, 
interdicting, and lessening the impacts of non-nuclear explosives used 
in terrorist attacks against mass transit, civil aviation, and critical 
infrastructure. Of that increase, $10 million will develop high-
throughput cargo screening technology through automated, more efficient 
equipment. An additional increase of $14.7 million will build on fiscal 
year 2009 efforts to counter the threat of hand-carried improvised 
explosive devices to mass transit systems by detecting all types of 
explosive threats such as homemade, commercial, and military 
explosives.
    Border and Maritime.--DHS proposed an increase of $5 million to 
fund a new basic research effort to develop the foundations for 
technologies to provide advanced detection, identification, 
apprehension, and enforcement capabilities along borders, increasing 
the security of the border and lower the risk of a successful terrorist 
attack. An additional increase of $2.1 million is proposed to fund 
programs identified in Maritime Security IPT that will provide 
technologies to the United States Coast Guard (USCG), Customs and 
Border Protection (CBP), Immigration and Customs Enforcement (ICE), and 
other components operating in the Maritime environment.
                              unifying dhs
    The S&T Directorate, by virtue of our role supporting operating 
components across the Department, is in a unique position to help 
accelerate the maturation and unification of the Department. The S&T 
Directorate provides Department-wide services that help DHS operate 
better as one Department.
Test & Evaluation
    The S&T Directorate established the Test and Evaluation and 
Standards Division (TSD) in fiscal year 2007 to develop Department-wide 
test and evaluation (T&E) policy and provide T&E oversight of the major 
acquisition programs. TSD has worked closely with DHS Under Secretary 
for Management and all DHS components to develop and implement a robust 
Department-wide T&E policy that will be fully integrated into the 
Department's Acquisition process framework. We have created an interim 
T&E Directive that complements the new DHS Acquisition Directive 
(Management Directive 102-01). Together these policies will provide the 
appropriate component review and DHS oversight for test planning, 
execution, and reporting. The T&E policy requires components to 
participate in development and approval of the Test and Evaluation 
Master Plan (TEMP) that will describe the necessary Developmental Test 
and Evaluation (DT&E) and Operational Test and Evaluation (OT&E) that 
must be conducted in order to determine system technical performance, 
operational effectiveness, and suitability throughout the development 
process. The S&T Directorate established the Director, Operational Test 
and Evaluation (DOT&E) in fiscal year 2008 as the principal advisor on 
operational test and evaluation to the Office of the Secretary and 
component heads. The Secretary formally delegated authority to DOT&E in 
fiscal year 2009.
    TSD and DOT&E are currently providing oversight to major 
acquisition programs by participating in T&E working groups, approving 
TEMPs, approving Operational Test Plans, participating in Operational 
Test Readiness Reviews, observing testing, and participating in 
Acquisition Review Boards. Over the past year, we have:
  <bullet> Established a T&E Council to advise the senior DHS 
        management in matters relating to T&E. This Council includes 
        participation by all components in promoting T&E best practices 
        and lessons learned, ensuring adequate T&E infrastructure, and 
        establishing consistent T&E policy and processes for use in 
        acquisition programs throughout the Department.
  <bullet> Provided T&E oversight on critical acquisition programs 
        throughout the Department, including Advanced Spectroscopic 
        Portal (Cargo) ASP(C), BioWatch Generation 3, Secure Border 
        Initiative network (SBInet), Air/Sea Exit, National Cyber 
        Security Program (NCSP), U.S. Visit, Western Hemisphere 
        Traveler Initiative (WHTI), Secure Flight, Transformation and 
        Systems Consolidation (TASC), USCIS Transformation, 
        Transportation Worker Identification Card (TWIC), and Automated 
        Commercial Environment (ACE).
  <bullet> Partnered with the United States Navy (USN), NIST, and DOJ 
        to develop an initial set of standard test methodologies 
        applicable to small unmanned aerial systems (sUAS) in support 
        of law enforcement and urban search and rescue missions.
Standards
    The S&T Directorate is the Standards Executive for the Department, 
with responsibility for coordination of standards activities for DHS as 
prescribed in OMB Circular A119 and the National Technology Transfer 
and Advancement Act (Pub. L. 104-113). S&T works with DHS components to 
develop performance specifications, documentary standards, measurement 
standards and process standards as well as interoperability and safety 
standards. The Office of Standards within TSD has three main functions: 
(1) Coordination of standards within the Department; (2) outreach to 
the private sector standards development community; and, (3) management 
of a program to develop critical standards for homeland security 
applications.
    The Office manages the processes for formal adoption of standards 
as DHS National Standards. The Office also coordinates with private 
sector Standards Development Organizations (SDOs) that address the 
homeland security community, ensuring that the standards produced meet 
the requirements of the DHS components as well as State, local, and 
tribal users of equipment and processes. The Office also manages an 
investment of funds in development of standards to meet mission needs. 
This includes evaluating standards needs; participation in standards 
development planning; coordinating standards development efforts with 
DHS components and other State and Federal agencies and appropriate 
SDOs; and supporting activities at NIST, NIOSH, DOD, and the DOE 
National Laboratories and other partners in standards related 
technology development. Over the last year, we have:
  <bullet> Private Sector Preparedness--Established an intra-agency 
        accreditation and certification program with FEMA, the DHS 
        Private Sector Office, the DHS OIP, the DHS Office of Emergency 
        Communications and the DHS Office of General Counsel (OGC) to 
        help ensure emergency preparedness and business continuity in 
        the private sector.
  <bullet> Coordinated within DHS and with SDOs to complete the 
        development of standards for homeland security and first 
        responder equipment:
    <bullet> Biometrics equipment and credentialing standards;
    <bullet> Explosives detection standards for bulk and trace 
            detection systems, explosives reference materials, and a 
            pilot program for homemade explosives detection;
    <bullet> Personal protective equipment standards for law 
            enforcement, respiratory protection standards for first 
            responders;
    <bullet> Performance standards for robotics: Urban Search and 
            Rescue & Bomb Squad applications.
Commercialization and Private Sector Engagement
    The S&T Commercialization Office and the Office of SAFETY Act 
Implementation (OSAI) have both contributed to expand upon and improve 
the Directorate's relationship with business and industry. The 
Commercialization Office establishes and fosters working relationships 
with the private sector to facilitate cost-effective and efficient 
product/service development efforts.
    In the past year, OSAI has been responsible for coordinating 179 
applications from industry partners seeking Federal protection for 
their technology under the Support Anti-Terrorism by Fostering 
Effective Technologies Act of 2002 (SAFETY Act). This office links the 
private sector with not only the S&T Directorate but also other members 
of the Federal Government.
    The S&T Directorate officially established the Commercialization 
Office in 2008 to develop and execute programs and processes that 
identify, evaluate, and commercialize widely-distributed products or 
services that meet the operational requirements of the Department of 
Homeland Security's operating components, first responder community, 
critical infrastructure/key resources owners and operators and other 
Department users. It is committed to conducting outreach with the 
private sector in order to engage and leverage the expertise, skills, 
and resources of the private sector. This outreach includes a concerted 
effort to engage small, minority, disadvantaged and HUB Zone groups. As 
a result of these efforts, the Commercialization Office has compiled a 
listing of well-over 300 companies, outlining over 2,000 technologies, 
products and/or services that may possess alignment to DHS needs. 
Information has also been compiled to show the number of small, medium, 
and large businesses with whom the Commercialization Office has 
interfaced. A majority of those companies are small businesses.
    Since its inception, the Office has published a number of 
materials, including briefs, books, and articles that outline the major 
activities of the Commercialization Office and provide readers with 
easy-to-understand guides to execute effective detailed operational 
requirements documents (ORDs) and the newly created and implemented 
commercialization process. Furthermore, the Office has published three 
popular books to assist in the development of detailed operational 
requirements. These books serve as a useful resource to explain the 
critical role of detailed requirements to cost-effective and efficient 
product development as well as an easy-to-use guide to aid in the 
articulation of requirements.
    The Office also works with the private sector through its System 
Efficacy through Commercialization, Utilization, Relevance and 
Evaluation (SECURE) Program, an innovative public-private partnership 
in which DHS leverages the skills, expertise, and resources of industry 
to develop products or services aligned to DHS ORDs. Additionally, the 
newly introduced FutureTECH program, which is similar to SECURE, 
focuses on delivering TRL-6 technologies through cooperation with the 
university, national lab, and private sector R&D communities. For 
example, in the SECURE Program, DHS posts detailed ORDs on its web 
portal (http://www.dhs.gov/xres/programs/gc_1211996620526.shtm), along 
with a conservative estimate of the potential available market (PAM) of 
a given product/service and invites the private sector to use this 
information to formulate a business case to pursue potential sales 
opportunities found within DHS operating components and its many 
ancillary markets including first responders and CI/KR owners and 
operators. This program has been well received by the private sector, 
which had requested that DHS provide more information on the detailed 
needs and requirements of its stakeholders.
                         laboratory facilities
    The S&T Directorate has focused on the alignment between the DOE 
National Laboratories and the S&T divisions to establish a coordinated 
network to help deliver critical homeland security capabilities. The 
laboratory alignment provides strategic partnerships between the S&T 
divisions and S&T and DOE National Laboratories to leverage 
capabilities for basic research programs and portfolios. The aligned 
laboratories continue to be engaged by S&T on matters associated with 
the planning and execution of basic research as well as with other 
Federal partners. For example, the Pacific Northwest National 
Laboratory (PNNL) Capability Replacement Laboratory construction 
project is scheduled to be operational in fiscal year 2011. The project 
is a joint investment between DHS and DOE to assure the enduring 
capabilities (radiation detection and analysis; information analysis; 
and test, evaluation, and certification) continue in these mission-
critical areas.
NBAF
    After a rigorous 3-year competitive site selection process, DHS 
selected a parcel of real property in Manhattan, Kansas as the site 
upon which DHS plans to build and operate the National Bio and Agro-
defense Facility (NBAF). The NBAF will be a world class state-of-the-
art bio-containment level 3 and 4 laboratory that will research and 
develop diagnostic capabilities for high-consequence foreign animal and 
zoonotic diseases in livestock to protect the country's agricultural 
and public health against agricultural threats for the coming decades. 
Until the NBAF comes on-line (anticipated during 2015), upgrades and 
enhancements will be completed for the Plum Island Animal Disease 
Center to enable that facility to continue to safely operate as the 
front line of the Nation's defense against foreign animal diseases and 
continue to fulfill DHS and USDA research and operational requirements.
    Pursuant to Public Law 110-329 (DHS fiscal year 2009 Appropriations 
Act), Congress directed DHS to conduct ``a risk assessment of whether 
foot-and-mouth disease work can be done safely on the United States 
mainland.'' It also directed GAO to review DHS's risk assessment. I 
understand that the GAO plans to release a draft written report to 
Congress on June 15. I am confident that the risk assessment, 
environmental assessment, and security assessment DHS conducted for the 
proposed NBAF operations, which included confirmation from FMD experts 
and risk modeling experts, was thorough and appropriate. I appreciate 
the independent review being conducted by GAO and look forward to 
reviewing the report and its recommendations as we move forward with 
the design and construction of this important national facility.
Sale of Plum Island Animal Disease Center (PIADC)
    Pursuant to the release of the National Bio Agro-Defense Facility 
(NBAF) Record of Decision (ROD) in mid-January 2009, and in accordance 
with the fiscal year 2009 appropriations language, Section 540, S&T is 
working with the under secretary for management to engage the services 
of the General Services Administration (GSA) for the liquidation of all 
Plum Island Animal Disease Center (PIADC) real and personal property. 
As our agent for the liquidation, the GSA, following the release of the 
ROD, created a team of property, environmental, and legal professionals 
who toured Plum Island and spoke with laboratory personnel. GSA, along 
with DHS experts, has begun outlining strategies for the sale of the 
property to allow the greatest return while minimizing risk to the 
Department and impact to PIADC operations and personnel. GSA expects to 
put Plum Island on the market in fiscal year 2010 with a final sale and 
closing date expected in fiscal year 2011. The sale proceeds will 
offset the future appropriation for NBAF construction and all other 
associated costs including Plum Island environmental remediation. The 
S&T Directorate will request this appropriation in the fiscal year 2011 
President's budget. Depending upon the terms of the sale and when the 
sale is actually completed, S&T anticipates that it will continue to 
occupy PIADC and pay the new owner rent until the NBAF is ready for 
full operations in 2017. This would allow the new owner time to 
finalize its plans for the island's use and to begin the early design 
and preparatory activities for occupation. The sale of Plum Island 
purchase agreement would allow current operations to continue during 
NBAF construction and eventually transfer upon completion of the new 
NBAF facility.
    In addition to planning and constructing new laboratories, the S&T 
Directorate continues to operate its laboratories to provide homeland 
security research, test and evaluation, and technology transition 
capabilities to its customers. The Transportation Security Laboratory 
(TSL) protects America's skies through its research, development, test, 
and validation of solutions to detect and mitigate the threat of 
improvised explosive devices. Based on increased requirements to 
perform explosives testing, a Capital Investment Plan is being 
developed for TSL to provide additional laboratory facility space. The 
Chemical Security Analysis Center (CSAC) provides a scientific basis 
for the awareness of chemical threats and the attribution of their use 
against the Nation. It is a part of the interagency Sample Receipt 
Facility (SRF) and expected to be fully operational by the end of 
fiscal year 2009. The Environmental Measurements Laboratory (EML) seeks 
to improve the science and technology required for preventing and 
responding to homeland security threats, especially in the areas of 
radiological and nuclear threats.
                          university programs
    Likewise, the S&T Directorate continues to solidify its 
relationship with academia through the university-based Centers of 
Excellence (COE) Program. This program identifies partner institutions 
to conduct research and develop technologies to improve homeland 
security-related capabilities. In doing so, we not only gain access to 
the best cutting-edge research and development but we also help develop 
the next generation of American scientists. Moreover, by supporting 
Minority Serving Institutions (MSIs), this program implements our 
commitment ensuring that a representative science and technology work 
force is fully developed, and that the MSIs that are leading the 
development of this work force are rewarded for their efforts. In the 
past 2 years, the Directorate made 10 new MSI Scientific Leadership 
Awards and named four MSIs as COE co-lead institutions.
                               conclusion
    I am glad to report that the Department of Homeland Security 
Science and Technology Directorate has made significant progress over 
the past year, enabling DHS to better protect our Nation. I look 
forward to working with the committee to ensure continued success in 
both the near and long-term future.
    Members of the committee, I thank you for the opportunity to meet 
with you today and look forward to answering your questions.

    Ms. Clarke. Thank you, Mr. Buswell.
    Dr. Krohmer, you are recognized for 5 minutes.

STATEMENT OF JON KROHMER, ACTING ASSISTANT SECRETARY AND CHIEF 
   MEDICAL OFFICER, OFFICE OF HEALTH AFFAIRS, DEPARTMENT OF 
                       HOMELAND SECURITY

    Dr. Krohmer. Thank you, Madam Chairwoman, Ranking Member 
Lungren and Members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the 
President's fiscal year 2010 budget request for the Office of 
Health Affairs.
    OHA is beginning its third year in operation. We have 
accomplished much in a relatively short period of time, but as 
you indicated, have a lot that we still need to work on.
    Let me say, first, how much we really appreciate the 
support of this committee and its staff. As a result of your 
support, the Department is better able to protect the health of 
the American people and our DHS work force.
    I am happy to report on the progress that OHA has made as 
the Department's lead in safeguarding the Nation against 
threats of bioterrorist attacks and pandemics, as well as the 
lead in the integration of our Nation's medical preparedness 
capabilities and the protection of the health and safety of the 
Department's work force.
    Today, in OHA, we have a work force of nearly 250 dedicated 
individuals devoted to our mission and to our role as the 
Department's principal authority for medical and health 
security issues.
    Acts of biological terrorism and pandemic have the 
potential to cause significant harm to the Nation in terms of 
loss of life, economic costs, and damage to critical 
infrastructure.
    We in OHA are focused on preventing acts of terrorism and 
outbreaks of disease from becoming national catastrophes. As 
such, one of our areas of focus is the early detection and 
rapid identification of biological incidents.
    To that end, OHA's BioWatch program provides a capability 
for early detection and warning of a biological attack in our 
Nation's high-risk urban areas.
    Early detection is critical to the deployment of effective 
medical countermeasures. A 1-day delay in treatment of an 
anthrax exposure has the potential to result in thousands of 
deaths.
    OHA is working to shorten the critical time lapse between 
agent release and detection through the procurement and 
deployment of automated detection equipment.
    The goal is to complete all testing and evaluation in early 
fiscal year 2011.
    Until Generation 3 is fully operational, though, it is 
imperative that the Nation maintain the operation of Generation 
1 and 2 detection units. Without these detectors, the Nation 
has no ability to detect biological attacks until individuals 
start to show clinical symptoms, and, by then, we will have 
lost valuable time and the ability to effectively employ 
medical countermeasures to prevent needless deaths.
    I also want to recognize the contributions of the National 
Biosurveillance Integration Center, or NBIC, which the 
secretary placed under the authority of OHA at the beginning of 
fiscal year 2007.
    NBIC was reestablished as the entity where Federal 
departments and agencies come together to monitor and analyze 
information for potential biological threats by integrating and 
analyzing data from human, animal, plant, food, and 
environmental monitoring systems.
    NBIC will continue to provide the visual, analytic, and 
decision support capabilities of the biological common 
operating picture and plans to upgrade data sharing services, 
access additional data resources, and offer proper data 
protection for all NBIC partners.
    OHA has made significant strides in protecting the 
Department's work force. Our Office of Component Services is 
developing strategies, policies, and requirements for a 
Department-wide occupational medicine and health program for 
work force protection and for medical oversight of DHS EMS 
activities.
    OHA also has a cadre of medical readiness professionals and 
food, agricultural, and veterinary experts who are 
participating in end-to-end contingency planning for 
bioterrorism and other catastrophic scenarios.
    OHA played a critical role in the recent 2009 H1N1 
outbreak. On initial report of the H1N1 cases, we stood up a 
decision support cell to serve the national operations center.
    The Office of Component Services collaborated with DHS 
components to inventory their countermeasure stockpiles, 
determine needs, and deploy additional countermeasures, 
especially to border areas.
    NBIC supported the Federal lead agencies with specific 
cross-domain analysis related to H1N1 and generated 
comprehensive daily status reports. BioWatch contract support 
at 27 public health laboratories provided surge support for 
laboratory sample analysis.
    The OHA structure is fully integrated with the pillars of 
biodefense, providing important contributions to threat 
awareness, surveillance and detection, prevention and 
protection, and response and recovery.
    Although OHA is relatively small in size, it is critical in 
its mission. The program dollars we receive are essential to 
give our dedicated personnel the resources necessary to 
vigorously protect the health of the Department and of the 
Nation.
    It has been my pleasure to serve in this office for nearly 
3 years.
    Again, I thank you for your support of the critical role 
that OHA plays in the Department's mission to secure our 
Nation, and I look forward to continuing our work with you.
    Thank you.
    [The statement of Dr. Krohmer follows:]
                   Prepared Statement of Jon Krohmer
                              June 9, 2009
    Chairwoman Clarke, Ranking Member Lungren, Members of the 
subcommittee: Thank you for the opportunity to appear before you today 
to discuss the President's fiscal year 2010 budget request for the 
Office of Health Affairs (OHA) within the Department of Homeland 
Security (DHS). I am happy to share with you the progress our office 
has made towards promoting the medical and health security of the 
Nation.
    OHA is beginning its third year in operation. We have accomplished 
much in a relatively short amount of time and in the face of 
significant challenges such as the recent H1N1 influenza outbreak and 
national food contamination events. Let me start off by saying how much 
we appreciate the support of this committee and its staff. As a result 
of this support, the Department is better able to protect the American 
people and our DHS work force than it was just 2 years ago.
    I would like to report on the progress that OHA has made in leading 
the Department's efforts in protecting our Nation from the threats of a 
bioterrorist attack and a pandemic, as well as OHA's progress in 
leading the Department's efforts to ensure full integration of our 
Nation's medical readiness capabilities and protecting the health and 
safety of the Department's work force.
                      the oha mission and history
    Today I represent an OHA work force of nearly 250 dedicated 
individuals, devoted to our mission and our role as the Department's 
principal authority for medical and health security issues. As the 
committee is aware, OHA has its beginnings in Secretary Chertoff's 
creation of the position of Chief Medical Officer (CMO) within the 
Preparedness Directorate in 2005 as part of his Second Stage Review. 
This position was created to provide the Secretary with a medical 
adviser for health-related security issues that may arise during a 
catastrophic incident.
    Congress recognized the Presidentially appointed, Senate-confirmed 
position of CMO in the ``Post-Katrina Emergency Management Reform Act 
of 2006'' (PKEMRA), Title VI of Pub. L. 109-295 (``The Department of 
Homeland Security Appropriations Act of 2007''), and as part of the 
consequent reorganization, the Secretary established OHA on March 31, 
2007. This new Office was established to fill gaps the Department 
identified in the areas of weapons of mass destruction (WMD) and 
biodefense operations; planning and readiness; and the health and 
safety of the DHS work force.
    The following are examples of key gaps now being addressed by OHA:
  <bullet> Biodefense.--Principal agent for all the Department's 
        biodefense activities, including its obligations under Homeland 
        Security Presidential Directive 9 (Food and Agro-Defense) and 
        Homeland Security Presidential Directive 10 (Biodefense);
  <bullet> Contingency Planning.--Responsible for subject matter 
        expert-driven contingency planning for bioterrorism and other 
        catastrophic scenarios involving threats to the health of the 
        population, from threat awareness through surveillance and 
        detection, prevention and protection, response, and physical, 
        psychological, and environmental recovery;
  <bullet> Occupational Health and Safety.--Consistent policies, 
        metrics, or standards for occupational health issues and 
        operational medical support for its diverse work force; and
  <bullet> Alignment with the Interagency.--Structured the Chief 
        Medical Officer in the DHS organization consistent with other 
        Federal partners.
    It is important to note that OHA:
  <bullet> Fulfills its incident management duties under Homeland 
        Security Presidential Directive (HSPD)-5, Management of 
        Domestic Incidents;
  <bullet> Supports Critical Infrastructure protection under HSPD-7, 
        Critical Infrastructure Identification, Prioritization, and 
        Protection;
  <bullet> Promotes medical readiness planning under HSPD-8, National 
        Preparedness; 
  <bullet> Discharges the Department's responsibilities for biodefense 
        under HSPD-9;
  <bullet> Protects the safety of the public by supporting the Medical 
        Countermeasures process under HSPD-18, Medical Countermeasures 
        and Weapons of Mass Destruction, and providing an integrated 
        biosurveillance capability, and working with the interagency on 
        medical response issues under HSPD-21, Public Health and 
        Medical Preparedness, and;
  <bullet> Provides medical expertise to the Secretary and the FEMA 
        Administrator, serving as the DHS point of contact to State, 
        local, Tribal and territorial governments and the private 
        sector on medical and health matters and leads the Department's 
        biodefense mission, all under the PKEMRA.
           fiscal year 2010 budget requests and achievements
    The President is requesting $138 million for fiscal year 2010 to 
further the objectives of the OHA mission. OHA's strategic objectives 
for fiscal year 2010 include:
  <bullet> leading the Department's responsibilities for biodefense;
  <bullet> developing, testing, and evaluating automated detection 
        equipment called ``Gen-3'' for deployment. Gen-3 offers the 
        near real-time warning of a release of an aerosolized 
        biological agent;
  <bullet> enhancing the security of the Nation's food and agriculture 
        supply;
  <bullet> initiating activities to increase coordination of medical 
        readiness across Federal, State, local, Tribal and territorial 
        governments and the private sector;
  <bullet> working across DHS to protect the health and safety of the 
        Department's mission critical work force from a pandemic 
        influenza or biological attack so that they would continue to 
        protect the Nation during times of crisis; and
  <bullet> providing medical oversight for the Department's medical 
        activities.
    The following programs highlight how OHA will utilize the proposed 
fiscal year 2010 budget request to meet these strategic challenges.
                                biowatch
    BioWatch provides a capability for early detection and warning 
against biological attacks in over 30 of our Nation's highest-risk 
urban areas through placement of a series of biological pathogen 
detectors. Deployment of such technology is critical to our Nation's 
security as the detection of a biological pathogen, such as aerosolized 
anthrax, at the earliest stages of release is critical to successful 
treatment of the affected population. Early detection and warning of a 
biological attack is essential for the rapid identification of the 
bioagent, which allows for prophylactic treatment and prevention of 
casualties, provides forensic evidence to law enforcement on the source 
and nature of the attack, and demonstrates a spatial distribution of 
contamination and population exposure. Relying solely on symptomatic 
monitoring (syndromic surveillance) or post-exposure information 
provided from the health care and public health communities adds 
significant delays, resulting in increased causalities and loss of 
life, potentially in the tens of thousands. To date, this vital program 
has conducted over 5 million air samples without a false alarm, and has 
formed vital partnerships with State and local public health, 
laboratory, law enforcement, and environmental health entities to 
further its detection mission.
    Early detection is critical to protecting the health of the Nation. 
With anthrax, for example, a 1-day delay in the post-exposure 
prophylaxis or treatment of exposed individuals could result in many 
thousands of unnecessary deaths. Early detection and rapid medical 
treatment is therefore essential to protecting the health of the 
American people during such an incident of bioterrorism.
    If a post-exposure prophylaxis program is initiated early (as would 
be the case in a well-prepared BioWatch city), it will also reduce the 
economic impact of an anthrax attack. The cost savings estimates 
associated with early detection are $15-25 billion if exposed persons 
are treated on Day 0, $10-20 billion if treated on Day 1, $10-16 
billion on Day 2, and $5-7 billion if treated on Day 3.\1\
---------------------------------------------------------------------------
    \1\ Kaufmann AF, Meltzer MI, Schmid GP. The Economic Impact of a 
Bioterrorist Attack: Are Prevention and Postattack Intervention 
Programs Justifiable? Emerging Infectious Diseases. 1997;3:83-94.
---------------------------------------------------------------------------
    In fiscal year 2009, the OHA is utilizing its BioWatch program 
dollars to maintain Gen 1 and Gen 2 baseline detection capabilities 
(which requires manual collection of filters and laboratory analysis) 
and has deployed biodetection support to numerous National Security 
Special Events (NSSE) and Special Events. It is also providing subject 
matter expertise and reach-back to jurisdictions for BioWatch 
Actionable Results and continues to cultivate vital partnerships with 
State and local public health agencies and laboratories. In addition, 
fiscal year 2009 funding has enabled DHS to initiate a field test 
program for prototype units for Gen-3 autonomous detectors.
    The President requests $94.5 million for BioWatch in fiscal year 
2010. This funding will enable DHS to continue to maintain and deploy 
capability to support BioWatch jurisdictions and for NSSEs and special 
events, and maintain subject matter expertise and reach-back support 
necessary to assist local jurisdictions in the event of a BioWatch 
actionable result (BAR). Fiscal year 2010 proposed funding would also 
be used to complete the Gen-3.0 prototype unit field testing (to 
include characterization and jurisdictional tests), perform data 
analysis, and verify the performance of one or more autonomous 
detection technology platforms in preparation for large-scale 
procurement and system-wide deployment.
    OHA's goal is to complete all testing and evaluation for a larger 
deployment of automated detectors beginning in fiscal year 2011 to 
decrease detection times from attack to as little as 4 to 6 hours.\2\ 
It is imperative, however, that the Nation maintain the operation of 
Generation (Gen) 1 and Gen 2 detection units until such time that the 
Gen 3 system is fully operational. Without the detectors currently in 
operation, the Nation has no ability to detect biological attacks until 
affected individuals start to present symptoms in our Nation's 
emergency departments and physicians' offices--by that point, we will 
have lost valuable time and ability to effectively employ medical 
countermeasures, resulting in needless loss of life.
---------------------------------------------------------------------------
    \2\ Such a large-scale deployment of new technology would take 
place only after rigorous third-party evaluation and testing and 
Departmental review.
---------------------------------------------------------------------------
           national biosurveillance integration center (nbic)
    The Secretary placed NBIC under the authority of OHA at the 
beginning of fiscal year 2007, and reestablished NBIC as the entity 
where other departments and agencies come together to monitor and 
analyze potential biological threats to the homeland. Later that year, 
Congress authorized NBIC in Section 1101 of the ``Implementing 
Recommendations of the 9/11 Commission Act of 2007,'' (9/11 Act) Pub. 
L. 110-53, to enhance the capability of the Federal Government to 
identify and monitor biological events of national concern by 
integrating and analyzing data from human, animal, plant, food, and 
environmental monitoring systems. The 9/11 Act also called on NBIC to 
disseminate alerts to Federal partners, States, and localities to 
better enable them to prepare for and respond to such biological 
threats.
    While Federal partners continue to operate their respective 
surveillance programs, NBIC is charged with synthesizing and analyzing 
information collected from these member agencies and other information 
sources in order to identify and monitor biological threats. No other 
place in Government serves to integrate this information from across 
the spectrum of public and private, domestic and international, open 
and protected sources.
    In fiscal year 2009, NBIC continued to encourage all Federal 
partner agencies to be actively engaged in NBIC, and reached out to 
State, local, Tribal, and territorial partners via existing DHS 
relationships, State and local Fusion Coordination Center 
representatives, and Protective Security Advisors (PSAs). OHA also 
finalized two additional NBIC Memorandums of Understanding (Department 
of Commerce and the Veterans Administration respectively) and 
encouraged NBIC Member Agencies (NMAs) to enter into Interagency 
Agreements to support placement of detailees to serve at NBIC to 
provide in-depth subject matter expertise and analytic perspectives to 
support the analysis and reporting on biological events.
    For fiscal year 2010, the President requests $8 million, an amount 
equal to the fiscal year 2009 enacted level.
    With those funds NBIC will continue to provide the visual analytic 
and decision support capabilities of the Biological Common Operating 
Picture (BCOP) by providing access to in-depth scientific data, 
situational awareness, digital and analog depictions, and modeling and 
simulation results in a User Defined Operational Picture (UDOP). UDOP 
will provide a full, comprehensive electronic picture with assessments 
of current biological events and trends and their potential impacts on 
homeland security. In addition, funding will be used to link the BCOP 
and the Biosurveillance Common Operating Network into an integrated IT 
architecture, supported by life-cycle management, and make it 
exportable to NMAs. This funding will also upgrade systems 
infrastructure to implement data-sharing services, provide access to 
additional data resources across the biological and surveillance 
communities, and offer proper protection of data for all NBIC partners.
              rapidly deployable chemical detection system
    OHA's Rapidly Deployable Chemical Detection System (RDCDS) provides 
for the detection of a potential chemical release. It is part of a 
larger effort to provide leadership and direction to a comprehensive 
chemical defense program.
    In fiscal year 2009, RDCDS funding is being used to continue to 
validate intelligence information on chemical compounds believed to be 
of interest to terrorists and conduct primary field experiments based 
on findings, conduct a market survey and evaluate chlorine gas 
detection equipment, and collaborate with the EPA to provide aerial 
surveillance and support during natural or man-made disasters.
    The President requests $2.6 million in fiscal year 2010 for RDCDS 
to further validate intelligence information on chemical compounds 
believed to be of interest to terrorists and conduct primary field 
experiments based on findings. In addition, RDCDS will procure, 
install, and validate equipment for aerial surveillance and detection 
of chlorine gas.
               food, agriculture, and veterinary defense
    OHA's Division of Food, Agriculture, and Veterinary Defense (FAVD) 
serves as the Department's lead for HSPD-9, Defense of United States 
Agriculture and Food. It provides expertise to the Secretary on 
zoonotic, food, and agriculture threats to homeland security. This 
includes evaluating and coordinating DHS' research, grants, and 
veterinary preparedness and response activities. FAVD utilizes some of 
the Nation's premier leaders in veterinary medicine and agro-defense to 
support its activities.
    In fiscal year 2009, FAVD is completing the development of the 
Strategic Plan (for Federal Bio Planning Against Biological Attacks) 
for catastrophic Foreign Animal Disease (Foot and Mouth Disease) and 
Food Contamination Scenarios. It is also participating in the 
development of CONOPS, OPS Plan and Tactical Plan (for Federal Bio 
Planning Against Biological Attacks) for Foreign Animal Disease (Foot 
and Mouth Disease) and Food Contamination Scenarios. In addition, FAVD 
is developing a Preparedness and Response Toolkit which will enable 
State, local, Tribal, and territorial organizations to measure their 
preparedness and response capabilities against established food and 
agricultural catastrophic scenarios, develop exercises to test their 
response, and facilitate the implementation of lessons learned from 
exercises and/or events as a means to improve capability. Additionally, 
the self evaluations will be used to develop national standards that 
are based on real-world experiences of the State, local, and Tribal and 
territorial organizations.
    The President requests $727,000 for FAV Defense for fiscal year 
2010, an amount equal to the fiscal year 2009 enacted level. This 
funding provides for: (1) The completion of the development of the 
Defense of Food and Agriculture ``Dashboard'' and Collaboration Tool on 
the Office of Management and Budget (OMB) MAX Web site, which has been 
recognized as a model for interagency collaboration; (2) the completion 
of the Preparedness and Response Benchmarking Tool Kit to enhance 
preparedness at the State, local, Tribal, and territorial level; and 
(3) the performance of gap analysis specific to FAV Defense arenas 
across internal, external and Federal, State, local, Tribal, 
territorial, and private organizations to support the integration of a 
comprehensive program of food defense.
                    the office of medical readiness
    The Office of Medical Readiness (OMR) is the area of our office 
that interfaces most closely with our Federal, State, local, Tribal, 
and territorial partners. It develops policies and programs to enhance 
all hazards planning, exercises, and training, promote integration of 
State and local medical response capabilities, align DHS emergency 
preparedness grants and support the medical first responder community. 
This Office is critical to the coordination of health and medical 
issues both within DHS and within the interagency as it relates to 
multidisciplinary, multi-jurisdictional planning, and coordination 
activities.
    In collaboration with the Department of Health and Human Services, 
OMR developed and disseminated the Pandemic Influenza Vaccination 
Allocation and Targeting Guidance, which assists State, local, Tribal, 
and territorial communities in preparing for the allocation of vaccines 
to reduce a pandemic's impact. Also, in collaboration with the Federal 
Interagency, OMR developed the National Strategy for border management 
during an Influenza Pandemic.
    For fiscal year 2010, the President requests $1.75 million for OMR. 
This funding will be used to initiate the implementation of the Medical 
Intelligence/Information Sharing Program in support of better 
integrating public health and health care communities with the homeland 
security intelligence community. In addition, funds will promote the 
representation of health security communities within the national 
network of State and Local Fusion Centers. It will also be used to 
support the interagency process for development of policies and 
guidance related to medical readiness for Weapons of Mass Destruction 
and natural disasters. In addition, this funding will be used to 
initiate a plan to provide guidance and technical assistance to States 
and local communities on medical and health issues related to medical 
readiness and response and to provide reachback technical assistance 
for Occupational Health for intra-DHS first responder forces, through 
our Office of Component Services.
                      office of component services
    The Office of Component Services provides work force protection 
guidance to the Secretary and under secretary for management. The 
Office leads the development of strategy, policy, requirements, and 
metrics for the medical elements of the Department-wide occupational 
health and safety program. This Office also provides oversight for 
medical services rendered by or on behalf of DHS, including all 
Emergency Medical Services (EMS) personnel. The Office provides a forum 
for leaders of component medical officers to collaborate and share best 
practices and to participate in reviewing Departmental medical policy 
and procedure.
    The Office of Component Services has led efforts to establish 
baseline reviews of the Department's occupational medicine services and 
health and safety programs for the Department's work force. It has 
developed the requirements and an implementation plan for a 
comprehensive workers injury and disability management system, in 
conjunction with the DHS Chief Human Capital Officer; worked with the 
Department's Office of Safety and Environmental Programs on 
occupational safety and health policies; provided a travel medicine 
program to support internationally-deployed work force; and identified 
key management level occupational health and safety metrics which can 
drive Departmental implementation of occupational health principles.
    In fiscal year 2009, the Office of Component Services is using its 
funding to: (1) Develop consultative services for Component leads on 
health issues; (2) develop cross-DHS Emergency Medical Services 
protocols, credentialing and quality assurance standards; (3) support 
international deployment health and wellness decisions; (4) support the 
Division of Immigration and Health Services (DIHS) with quality 
assurance and medical input; (5) promote wellness through newsletter 
and a internet-based health information site; and (6) advise FEMA on 
safety and environmental health housing issues.
    For fiscal year 2010 activities, the President requests $750,000 
for the Office of Component Services. These funds will be used to: (1) 
Augment Occupational Medical Services staff members to assist the 
Medical Director in the development of strategy, policy, requirements 
and metrics for the medical aspects of a Department-wide occupational 
health and safety program; (2) provide health and medical consultation 
resources and assistance at a leadership level on a 24/7 basis; (3) 
assist Office of the Chief Human Capital Officer personnel with 
assessing position descriptions, physical evaluation programs (pre-
placement, fitness-for-duty, return-to-work, etc.), performing post-
incident analyses, and working with programs to improve return-to-work 
programs and to facilitate evaluation and treatment activities within 
Department of Labor guidelines and limitations; (4) work to define the 
requirements for job appropriate personal protective equipment, 
vaccinations, and post-exposure prophylaxis; and (5) create a 
Departmental credentialing and medical oversight framework.
                    oha's activities related to h1n1
    In addition to the OHA activities described above, OHA has played a 
critical role in the Department's response to the recent H1N1 influenza 
outbreak. The funding approved by Congress has enabled OHA to carry out 
these functions. OHA provided information, analysis and medical advice 
to the Secretary and the Department 24 hours a day/7 days a week on 
medical and health aspects of the incident. OHA is working with the 
Secretary and other DHS components to take steps to help protect the 
DHS work force, specifically those at the border and working overseas.
    Upon initial reports of H1N1 cases in Southern California, OHA 
stood up a Decision Support Cell (DSC) through its Office of Medical 
Readiness to support the National Operations Center (NOC). This 
decision support cell served as a focal point for monitoring and 
coordinating OHA-related operations. It was the central collection, 
analysis, and processing element for medical and health information and 
guidance for the Department, feeding into the NOC. The cell was staffed 
by physicians, toxicologists, epidemiologists, and public health and 
emergency management experts, as well as representatives from the 
National Biosurveillance Integration Center and the Intelligence and 
Analysis Directorate, who worked collaboratively to collect and analyze 
information and distribute analysis and guidance to the Secretary in 
support of her role as the Principal Federal Official, the NOC and 
other DHS components.
    Each Office within OHA contributed to the H1N1 response.
  <bullet> The Office of Component Services collaborated with DHS 
        Components to inventory their respective countermeasure 
        stockpiles, determine needs, and deploy additional 
        countermeasures (antivirals and personal protective equipment), 
        especially to border areas. Component Services working closely 
        with the Management Directorate in developing guidance to DHS 
        personnel on the use of personal protective equipment and on 
        prophylactic antiviral dispensation.
  <bullet> The Office of Medical Readiness set up and operated the DSC, 
        fielding questions from Departmental leadership, the 
        interagency, and States and locals, and managing the 
        information flow into and out of OHA, through the NOC. OMR also 
        supported other DHS components and Interagency partners in 
        conference calls and meetings to provide updates, situational 
        awareness and medical and health advice, and participated in 
        White House activities to address the outbreak. In addition, 
        OMR collaborated with CDC on the development and distribution 
        of Travelers Health Alert Network (THAN) notices, which provide 
        travelers entering and exiting U.S. ports and border crossings 
        with information about the symptoms of H1N1 and direct 
        travelers to the CDC Web site for updates.
  <bullet> Three divisions within the Office of Weapons of Mass 
        Destruction have contributed to the H1N1 response. NBIC is 
        supporting the Federal lead agencies with specific cross-domain 
        analysis related to H1N1 and has generated comprehensive daily 
        status reports based on integrating Federal, State, open 
        source, and classified information sources on the status of the 
        H1N1 influenza outbreak. BioWatch contract support at 27 public 
        health laboratories has provided surge support for laboratory 
        sample analysis. The Food, Agriculture, and Veterinary Division 
        is in frequent communication with USDA's Office of Homeland 
        Security and the Animal and Plant Health Inspection Service 
        (APHIS), and has provided to the DSC, NBIC, Department senior 
        leadership information on: APHIS and CDC's recent development 
        of a pilot surveillance project to better understand the 
        epidemiology of swine influenza virus infections in swine and 
        in humans; the current status of biosurveillance of swine 
        diseases in the United States; and, the current status of 
        agricultural imports and exports between the United States and 
        Mexico.
                      oha and our federal partners
    OHA is designed to contribute to the health and security of the 
American people, in instances like the H1N1 outbreak, and in full 
coordination and collaboration with other DHS components and our 
Federal, State, local, Tribal, territorial, and private sector 
partners. OHA's responsibilities and activities enhance National 
planning for and response to the health consequences of catastrophic 
incidents. This approach is consistent with the incident management 
coordination mandated by HSPD-5 and will ensure that the full, 
coordinated force of the Federal Government is appropriately applied to 
management of incidents of any scale.
    OHA works closely with all of the Department's components by 
supporting their occupational health and safety requirements, and 
coordinating with others to meet operational requirements. We have 
spent much of our time over the last 2 years collaborating with our 
Federal partners at the Departments of Health and Human Services, 
Defense, Agriculture, Commerce, Transportation, Justice and Veterans 
Affairs, the Environmental Protection Agency, the U.S. Postal Service 
and members of the intelligence community on a wide range of activities 
and initiatives. OHA has reached out to numerous State and local 
governments and non-governmental organizations, associations, and 
private sector entities to advance the mission of a Nation prepared for 
health consequences of catastrophic events.
    Though it has been over 7 years since the attacks of September 11, 
and the anthrax mailings that followed soon thereafter, the risk of 
biological and chemical attacks still exists. To manage this risk, the 
OHA structure is fully aligned with the pillars of biodefense providing 
important contributions to threat awareness, surveillance and 
detection, prevention and protection, and response and recovery.
    OHA is relatively small in size, but critical in its mission. The 
program dollars we receive are essential to give our dedicated 
personnel the resources they need to take action to protect the health 
of the Department and the Nation.
    We appreciate the committee's support for our budget so that we can 
fulfill the mandates of the President and Congress.
    It has been my pleasure to serve in this office for the past almost 
3 years. I thank you for your support of the critical role of OHA in 
the Department's homeland security mission. I look forward to answering 
any questions you may have.

    Ms. Clarke. Thank you, Dr. Krohmer.
    Dr. Gallaway, you are recognized for 5 minutes.

  STATEMENT OF CHARLES R. GALLAWAY, ACTING DIRECTOR, DOMESTIC 
                    NUCLEAR DETECTION OFFICE

    Mr. Gallaway. Good afternoon, Chairwoman Clarke, Ranking 
Member Lungren and distinguished Members of the committee.
    As acting director of DHS's Domestic Nuclear Detection 
Office, I would like to thank the committee for the opportunity 
to discuss radiological and nuclear detection and to highlight 
the work we are pursuing.
    I would like to express my gratitude to the committee for 
its support of our mission to reduce the risk of radiological 
and nuclear terrorism to the Nation.
    Since DNDO was formed just over 4 years ago, we have made 
significant strides in improving the Nation's capability to 
detect RAD/NUC sources in containerized cargo.
    Working with U.S. Customs and Border Protection, we have 
employed radiation portal monitors to a majority of sea ports 
and land border crossings, resulting in scanning of 98 percent 
of all incoming containers.
    We are working to achieve 100 percent by finishing the 
remainder of the deployments along the northern border by the 
end of this year, matching what we have already accomplished on 
the southern border.
    Additionally, we are moving to other previously unaddressed 
cargo challenges, including on-dock rail, international rail, 
and air cargo.
    We have made substantial investments in the development of 
the next generation portal monitor, known as the advanced 
spectroscopic system, or ASP. ASP technology will significantly 
improve our ability to correctly identify and interdict 
smuggled nuclear material and offer the ability to 
automatically sort threat materials from naturally occurring 
radioactive material.
    This should reduce the number of alarms due to innocent 
radioactive sources, alarms that currently consume large 
amounts of CBP officers' time.
    The ASP units are currently undergoing an extensive test 
and evaluation campaign. The successful completion of this 
testing, along with other analysis and consultation with the 
National Academy of Sciences, will then inform the secretary's 
certification of ASP performance this fall.
    You have probably noted that in the Department's fiscal 
year 2010 budget request, there is no funding request for 
systems acquisition. In fiscal year 2010, we will continue to 
carry out the joint CBP/DNDO deployment strategy using the 
unobligated funds from previous years to procure current 
generation RPMs.
    Following a successful outcome to secretarial 
certification, prior year funds would be used to procure a mix 
of current generation and ASP systems. If certification does 
not occur, these remaining unobligated funds will continue to 
be used to pursue current generation systems.
    Another key objective is to address the threat of shielded 
nuclear material that passive systems are not capable of 
detecting. We are working with CBP on a range of technologies 
to address this concern.
    We are focusing much of our activity on radiography systems 
that provide the ability to automatically detect special 
nuclear material or dense materials that may be used to shield 
nuclear threats.
    Moving beyond containerized cargo security, we have shifted 
our focus and are now dedicating increased time and effort to a 
wide range of issues and challenges. Much of our insight has 
come from our work on the global nuclear detection 
architecture, which seeks to integrate efforts across the 
Government into a single strategy to improve the Nation's 
nuclear detection capability.
    We have been working with our partners to pursue a range of 
programs to strengthen the architecture.
    To be effective, countermeasures in each layer, 
international, at the border, and in the interior, along with 
each threat pathway, land, sea, and air, will require a 
flexible approach utilizing a variety of operational and 
technical solutions.
    Most importantly, no single solution is sufficient to 
completely address this threat. It is often said that we have 
to be right 100 percent of the time and terrorists have to be 
right only once.
    For a terrorist with an extremely valuable asset, like a 
nuclear weapon, our multilayered approach reverses that logic. 
Now, the terrorist must get it right his one chance and we need 
only succeed interdicting him at one of our many layers.
    As we work with our operational components, we remain 
committed to providing cutting-edge technology that can be used 
in a variety of environments to address remaining 
vulnerabilities.
    These technologies and strategies are coupled with our 
operational support services to ensure that alarms are properly 
resolved and that real threats are quickly transitioned to 
effective response.
    In addition, we train State and local officers to support 
our detection mission using a curriculum that provides 
instruction on how to operate detection equipment and 
investigate the potential malicious use of RAD/NUC materials.
    Finally, I look forward to continuing our work with our 
partners within DHS, our Federal departments, State, and local 
agencies, and the Members of this subcommittee, and the 
Congress to keep the Nation safe from radiological and nuclear 
terrorism.
    This concludes my prepared statement.
    Chairwoman Clarke, Ranking Member Lungren and Members of 
the subcommittee, I thank you for your attention and will be 
happy to answer any questions that you have.
    [The statement of Dr. Gallaway follows:]
               Prepared Statement of Charles R. Gallaway
                              June 9, 2009
    Good afternoon Chairwoman Clarke, Ranking Member Lungren, and 
distinguished Members of the subcommittee. As Acting Director of the 
Domestic Nuclear Detection Office (DNDO) at the Department of Homeland 
Security (DHS), I would like to thank the committee for the opportunity 
to discuss our fiscal year 2010 budget request and to highlight the 
work DNDO is pursuing. I would also like to thank the committee for its 
support of DNDO's mission to reduce the risk of radiological and 
nuclear (RN) terrorism for the Nation.
    DNDO was established to improve the Nation's capability to detect 
and report unauthorized attempts to import, possess, store, develop, or 
transport nuclear or radiological material for use against the Nation, 
and to further enhance this capability over time. To that end, our work 
is guided by our development of an enhanced global nuclear detection 
architecture (GNDA). DNDO has developed a time-phased, multi-layered, 
defense-in-depth GNDA that is predicated on the understanding that no 
single layer of defense can detect all RN threats. For this reason, the 
GNDA provides multiple detection and interdiction opportunities 
overseas, at our borders, and within the United States to effectively 
increase the overall probability of system success. DNDO has worked 
with intra- and inter-agency partners to develop time-phased strategies 
and plans for improving the probability of detecting and interdicting 
RN threats. DNDO will continue to enhance the GNDA over time by 
developing better RN detection technologies, improving concepts of 
operations (CONOPS), enabling real-time reporting of detection events, 
and providing effective response to real threats.
    My testimony today will share with the committee some of our plans 
for fiscal year 2010 and also our progress in addressing emerging 
mission requirements that will protect the United States from RN 
threats.
    The United States border is the first layer within the GNDA where 
the United States has full control over detection and interdiction. As 
such, considerable effort and resources have been placed on this layer 
to provide comprehensive RN detection capabilities, particularly at 
ports of entry (POEs).
    A key consideration in RN detection is the ability to effectively 
detect threats without impeding the flow of legitimate trade and travel 
across the border. United States Customs and Border Protection (CBP) 
currently scans cargo entering at our Nation's POEs using polyvinyl 
toluene (PVT)-based radiation portal monitors (RPMs) that can detect 
radiation, but cannot distinguish between threat materials and 
naturally-occurring radioactive material (NORM), such as kitty litter 
and ceramic tiles. To address this limitation, DNDO is developing next 
generation technology to automatically detect and distinguish threat 
from non-threat materials, while also reducing false alarm and referral 
rates. Narrowing down alarms for just dangerous materials is especially 
important for POEs that have a high volume of containers, or those that 
see a high rate of NORM.
    As you may know, DNDO initiated the Advanced Spectroscopic Portal 
(ASP) program in 2006. ASPs are the next generation of radiation portal 
monitors. ASP units are now being developed with two separate 
performers. These units have been subjected to one of the most rigorous 
testing campaigns of RPMs ever conducted prior to deployment. Both 
systems will complete several rounds of performance testing and field 
validation at POEs. Following these performance tests, both systems 
will complete operational testing and evaluation conducted by the DHS 
Science and Technology Directorate's Operational Testing Authority. 
Test data will be provided in support of the Secretary's Certification 
decision. DNDO is also engaged with the National Academy of Sciences, 
to allow NAS to review ASP testing and inform the certification 
process, as required in the fiscal year 2008 Consolidated 
Appropriations Act. Indeed, in its most recent report on ASP testing, 
the Government Accountability Office (GAO) has acknowledged the many 
enhancements and lessons that DNDO has incorporated into its testing 
programs.
    Following a successful outcome of Secretarial certification, prior 
year funds will be accessed to procure ASP systems. If certification 
does not occur, prior year funds will be used to procure only current 
generation systems.
    In addition to improving the basic functionality of the RPMs, DHS 
faces a number of unique challenges to secure cargo at our POEs that 
may require development of new CONOPS or technologies in order to 
mitigate identified risks. For example, the intermodal transportation 
of containerized cargo at terminals which transfer containers from a 
ship to a rail facility that is within the terminal, referred to as 
``on-dock rail'', accounts for approximately 2% of all import 
containers to the United States.
    Operational testing at the Rail Test Center (RTC) at the Port of 
Tacoma has demonstrated that mobile RPM (mRPM) systems can be used to 
scan cargo where special carts or container chassis move the containers 
to the rail facility, but this approach is not applicable where ports 
use straddle carriers in this role. For these terminals DNDO, CBP, and 
the Department of Energy (DOE) are investigating alternative 
technologies including ``spreader bar'' detectors and straddle carrier 
portals. Recent tests by both CBP and DOE have indicated technical 
weaknesses in the spreader bar approach, so DNDO is moving forward with 
the construction of a straddle carrier portal test article at RTC this 
year. We will reach a key decision point next year, where the results 
of spreader bar detection systems tested by CBP and DOE can be compared 
to the results of prototype straddle carrier portal testing by DNDO at 
RTC. At that point, we will identify the most effective mix of spreader 
bar detectors, straddle portal detectors, or a combination of the two 
approaches.
    Another key DNDO program seeks to address the threat of shielded 
nuclear materials placed in cargo conveyances that passive 
spectroscopic systems, such as ASP, are not capable of detecting. DNDO 
is also working with CBP to address next-generation radiography needs 
that can utilize radiography scanning to detect RN threats. The Cargo 
Advanced Automated Radiography System (CAARS) program is specifically 
designed to automatically detect shielded nuclear material. Since 
beginning the program in 2006, however, the commercial marketplace has 
made many advances. This, coupled with lessons learned from the ASP 
program--namely that high-risk development should not necessarily be 
procured concurrently with production--has led DNDO to de-scope the 
CAARS program from an acquisition program to a research and 
development-focused program. Under the new course, fiscal year 2009 
CAARS activities will subject both CAARS systems and commercially-
available systems to a test and evaluation program and a final 
demonstration of the products.
    Our on-going work with CBP to facilitate container security has 
resulted in the scanning of 98% of all incoming containerized cargo for 
RN at our land and sea ports of entry. Due to this significant 
progress, DNDO is now able to place a greater emphasis on our land 
borders between POEs, maritime, air, and the interior.
    To address gaps in the GNDA that remain unfulfilled by current 
technologies for RN detection, DNDO established a transformational 
research and development program that identifies, explores, and 
develops scientific and technological approaches that will dramatically 
improve the performance of nuclear detection components and systems. We 
have three efforts underway that support long-term research--
Exploratory Research, Advanced Technology Demonstrations (ATDs), and a 
dedicated Academic Research Initiative (ARI). There is tremendous 
involvement with the National Labs, private industry, and academia for 
these efforts. I am proud to say that these programs have already 
yielded some very promising results that we hope will make a tangible 
impact on this Nation's nuclear detection capabilities in the future.
    Just as one example, there have been major advances made in the 
area of new materials for passive radiation detection. Since all 
detectors rely on some material to detect the radiation emitted by a 
threat, discoveries of new, more effective detection materials have a 
high payoff because they can be incorporated into many different types 
of detectors for many different applications or threat scenarios. For 
gamma-ray detection, the new materials will result in detectors that 
are more efficient, cheaper, or have improved ability to reduce false 
alarms. For neutron detection, DNDO is accelerating the final 
development and initial production of new materials to replace the 
scarce, but presently-used, helium-3 by the end of fiscal year 2009 or 
early fiscal year 2010. To put this in perspective, to advance from the 
discovery of a new detector material to construction of prototype 
instruments in the space of 2-3 years is really remarkable. It is our 
intent to continue and accelerate these material research successes in 
fiscal year 2010.
    DNDO also has multiple programs that will provide a wide variety of 
law enforcement and first responders with effective human portable 
systems for RN detection: the Handheld program, the Human Portable Wide 
Area Search (HPWAS) program, and the Human Portable Tripwire (HPT) 
program. Each of these programs will result in the delivery of human 
portable systems that will be used in all DNDO mission areas: Aviation, 
land, maritime, and interior. Overall, each of the three human portable 
system program development efforts seeks to expand the spectrum of 
detectors available to end users by: (1) Investigating existing 
commercially available human portable systems and tailoring them to 
better meet the needs of operators; (2) developing cutting-edge 
technology when current systems are inadequate to meet customer 
requirements; and (3) conducting systems development efforts for 
maturing technologies that transition from ATDs. The first ATD expected 
to transition a system to development in fiscal year 2010 is the 
Intelligent Personal Radiation Locator (IPRL).
    One thing that DNDO has learned in its short existence is that 
industry, even without Government funding, often continues to develop 
commercial-off-the-shelf (COTS) detectors that may satisfy a greater 
range of requirements with limited additional development. DNDO has 
accordingly adjusted its strategy to investigate opportunities to 
address certain needs by developing customer-driven design 
modifications to currently available human portable equipment. In 
addition to these efforts, DNDO will develop human portable systems 
that transition successfully from our transformational research and 
development work. As we work at DNDO to improve our business models, we 
are looking at additional ways to leverage COTS technology wherever 
appropriate.
    DNDO also has a Congressional mandate to set Technical Capability 
Standards and implement a test and evaluation program to provide 
performance, suitability, and survivability information and related 
testing for preventive RN detection (PRND) equipment in the United 
States. In fulfillment of this requirement, we have established the 
Graduated Rad/Nuc Detector Evaluation and Reporting (GRaDER) program to 
assure independent and consistent testing of radiation detectors. This 
program will be leveraged to ensure technologies advanced by industry 
will be considered for acquisition programs, as appropriate. We are in 
the first phase of this program that will provide for commercially-
driven and privately-funded testing of COTS rad/nuc detection systems. 
GRaDER will work with the DOE and the National Institute of Standards 
and Technology (NIST) to use the National Voluntary Laboratory 
Accreditation Program (NVLAP) to support testing of COTS radiation 
detectors. Pacific Northwest National Laboratory (PNNL) has already 
received NVLAP accreditation, and it is anticipated that the first 
units to be tested through GRaDER will be COTS handheld detectors. 
Results of the GRaDER program will also be made available to DHS 
components and State, local, and Tribal law enforcement and first 
responder agencies to inform their procurement and grant process.
    One successful strategy that DNDO has used to enhance security is 
by ``piggy-backing'' on existing programs. In the land border between 
POEs, DNDO initiated the Phased Deployment Implementation Plan (PDIP) 
with CBP to evaluate and field test potential RN detection options 
where no off-the-shelf solutions are currently available and 
environmental conditions are particularly challenging. DNDO expedited 
the procurement of radioactive isotope identification devices (RIIDs) 
to provide CBP with an initial operating RN detection capability, and 
will improve that capability over time. Similarly, DNDO has coupled RN 
capabilities with the Transportation Security Administration's (TSA) 
Visible Intermodal Prevention and Response Teams (VIPR) to provide a 
greater Federal detection capability and add an additional layer of RN 
detector-equipped law enforcement personnel in support of the GNDA. 
Through the delivery of tailored training and a suite of RN detection 
equipment, the TSA VIPR teams will become another Federal asset that 
can perform regular PRND operations and may be called upon during 
periods of heightened alert levels. Prior to DNDO's involvement, the 
VIPR teams had no preventive RN detection capability.
    In the maritime environment, DNDO has established the West Coast 
Maritime Pilot to work with authorities in Washington's Puget Sound and 
the San Diego area to design, field, and evaluate a RN detection 
architecture (specific to each selected region) that reduces the risk 
of RN threats that could be illicitly transported on recreational craft 
or small commercial vessels in a ``direct-to-target'' scenario. The 
project aims to develop RN detection capabilities for public safety 
forces for use during routine public safety and maritime enforcement 
operations. In addition to this pilot, we have tested boat-mounted 
detection systems under our Crawdad test campaign.
    DNDO has similarly expanded work to secure the air pathway--both 
commercial operations and general aviation. Within the aviation 
pathway, RN threats may be transported via air as a prelude to an 
attack elsewhere, or the actual attack involving an RN threat device 
may be executed and delivered by air. As a result, DNDO is working 
closely with CBP to enhance capabilities to detect and interdict 
illicit RN weapons or materials entering the United States via the 
international general aviation pathway. These efforts included a test 
campaign, with CBP officers, at Andrews Air Force Base in 2008 that 
characterized CBP's current radiological scanning capability and 
identified methods to improve effectiveness by enhancing equipment and 
operational techniques.
    To further build upon the layered structure of the GNDA, DNDO works 
within the Nation's borders to develop PRND capabilities for urban 
areas, transportation vectors, special events, and State and local 
entities. DNDO works regularly with Federal, State, local, and Tribal 
entities to integrate nuclear detection capabilities in support of the 
GNDA. Our ``Securing the Cities'' initiative in the New York City (NYC) 
region, brought together law enforcement and first responders to design 
and implement a layered architecture for coordinated and integrated 
detection and interdiction of illicit radiological materials that may 
be used as a weapon within a metropolitan area. After 3 years of 
engaging with NYC and regional stakeholders, no additional funds are 
being requested for the STC initiative in fiscal year 2010. The 3-year 
pilot ends in fiscal year 2009. Additionally, NYC regional STC 
stakeholders can continue to fund additional capabilities through the 
DHS grants (e.g., Homeland Security Grant Program). DNDO will continue 
to support the STC initiative through the obligation and expenditure of 
appropriated STC funds with experienced program management and subject 
matter experts in preventive radiological and nuclear detection. For 
example, we are planning to actively support a regional full-scale 
exercise in 2010. DNDO has a vested interest in the continued success 
of the initiative as it seeks to reduce the risk of radiological and 
nuclear terrorism to New York City and extract lessons-learned for 
application to other major urban centers.
    DNDO's outreach also includes a State and Local Stakeholder Working 
Group with 25 States and territories meeting approximately once a 
quarter to bring the Nation's PRND community together, inform 
participants on activities within DNDO and the community, and obtain 
feedback on DNDO's programs and initiatives. State and local 
authorities also can use the PRND Program Management Handbook created 
by DNDO which provides consistent guidance for building or enhancing 
State and local PRND programs. In fiscal year 2008, DNDO used a five-
course training curriculum to train over 7,400 law enforcement, first 
responder personnel, and public officials, and has provided Federal, 
State, and local exercise support as a validation instrument to 
evaluate their RN detection, deterrence, prevention, reporting, 
vulnerability reduction and alarm adjudication capabilities in a risk-
free environment.
    Another facet of DNDO's interior work involves performing gap 
analysis and promoting mitigating strategies for securing radiological 
material at its source within the United States. Last year, our budget 
request included $1 million in funding for irradiator hardening, 
however in fiscal year 2010 the national implementation programs will 
be funded primarily by DOE/National Nuclear Security Administration 
(NNSA). Interagency collaboration for source security between DOE, DHS, 
and the Nuclear Regulatory Commission (NRC) is still in place, and DHS, 
through the Nuclear Government Coordinating Council and Nuclear 
Critical Infrastructure Partnership Advisory Council (CIPAC), will 
still have a seat at the table to coordinate a variety of ``source 
security'' projects as catalogued and tracked through the ``Initiatives 
to Improve Source Security'' matrix.
    Our fiscal year 2010 budget request also reflects increased 
emphasis on the critical area of nuclear forensics. In 2006, DNDO stood 
up the National Technical Nuclear Forensics Center (NTNFC) as a 
national-level interagency office. NTNFC serves as the national 
``system integrator'' weaving together the various specialized nuclear 
forensics activities across a number of different agencies. This role 
includes exercising, assessing, planning, and providing overarching 
stewardship. NTNFC also leads the development of the national 
capability for pre-detonation rad/nuc materials forensics, which 
provides the technical capabilities to rapidly, accurately, and 
credibly conduct nuclear forensics to support attribution conclusions 
about the origin, nature, and pathways of interdicted threats. In 
addition to supporting attribution conclusions, the forensics program 
can also contribute to national deterrence, by dissuading nations from 
providing nuclear materials or devices to terrorists.
    A related area of concern identified by the American Association 
for the Advancement of Science, the American Physical Society, the 
White House Office of Science and Technology Policy, and the National 
Academy of Sciences is the loss of trained individuals versed in 
nuclear science and engineering. DNDO has begun efforts to address 
these ``pipeline'' issues on multiple fronts, including awards of 
academic fellowships, internships, and research grants to academic 
institutions and national laboratories. The goal is to reinvigorate the 
Nation's pool of trained nuclear scientists and engineers. These 
individuals represent an investment in the future of DNDO, the overall 
GNDA, and the Nation's long-term security.
    By working with our DHS and interagency partners, DNDO is 
continuing to assess the best technological solutions for use in all 
pathways. We remain committed to providing cutting-edge detection 
technology that can be used in a variety of environments by Federal, 
State, local, and Tribal operators to address identified 
vulnerabilities in the GNDA. RN detection technologies and strategies 
are coupled with DNDO's operational support services to ensure that 
personnel on the front lines are properly trained in the PRND mission, 
alarms are promptly resolved, and detection of threats is seamlessly 
transitioned to operational response. Continuous coordination with 
interagency partners and State and local officials allows DNDO to 
integrate user requirements with technological solutions to address 
vulnerabilities. I look forward to continuing to work with components 
within DHS, other departments, State and local agencies, and the 
Members of this subcommittee and Congress to pursue this goal.
    This concludes my prepared statement. Chairwoman Clarke, Ranking 
Member Lungren, and Members of the subcommittee, I thank you for your 
attention and will be happy to answer any questions that you may have.

    Ms. Clarke. I thank you for your testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for 5 minutes.
    Dr. Gallaway, what is your current estimated date for ASP 
secretarial certification?
    Mr. Gallaway. We are looking at certifying this fall. I 
hesitate to give a specific date.
    Ms. Clarke. Is the current intention to certify for primary 
inspection, secondary inspection, or both?
    Mr. Gallaway. We would like to keep the option open to 
potentially certify for both. We are very focused on trying to 
get certification through on secondary.
    Ms. Clarke. So we are looking at somewhere between 
September, late November.
    Mr. Gallaway. October is kind of our notional date right 
now. We need to get our field validation restarted. We are 
looking to get it started early next month and assuming that it 
goes well, that we would then be on track for an October 
certification.
    Ms. Clarke. Very well.
    Let us suppose that the significant increase in operational 
effectiveness criteria are met for the ASP and that the 
secretary certifies the ASP.
    The next consideration is that an ASP costs 2.67 times as 
much as a current PVT.
    Does the increase in performance then justify the increased 
cost?
    Mr. Gallaway. Ma'am, you have hit the $64,000 question and 
that is one that will be deliberated by the secretary, because 
what we are doing is offering a system with significantly 
improved performance, but we will have to weigh that against 
the cost, and the secretary will then be forced to make an 
acquisition decision.
    Ms. Clarke. Well, I am sure she will be able to use your 
expertise, Dr. Gallaway. Thank you for answering those 
questions.
    Dr. Krohmer, do you believe that the Office of Health 
Affairs should continue to exist as a stand-alone office within 
the Department?
    Dr. Krohmer. Ma'am, based on the experience that we have 
had over the last 3\1/2\ years, a little bit more, that the 
office started as a chief medical officer and then transitioned 
to the Office of Health Affairs, I think it functions most 
effectively as an independent office.
    Ms. Clarke. Do you think that it should be split up with 
pieces sent to various other organizational entities within 
DHS? How would efficiency and effectiveness increase in either 
scenario?
    Dr. Krohmer. I think I have a biased perspective because of 
the experience that I have had working with the various 
programs that we have in the office.
    It is my personal perspective that there is a very close 
tie-in and could make a very good argument for keeping all of 
the programs together.
    I do acknowledge that there is some very close interaction 
with a number of our programs and other offices within DHS. So 
I think it is possible to make things work, but I think most 
efficiently and most effectively, it would be my preference to 
keep the programs together as they are.
    Ms. Clarke. Thank you, Dr. Krohmer.
    Mr. Buswell, what are your plans for Environmental 
Measurements Lab in New York City?
    Mr. Buswell. EML is a crown jewel, I think, of the Nation 
and it has worked in a very good way with the Department of 
Energy and the Department of Homeland Security since it was 
transferred over.
    As you know, it was a radiation monitoring laboratory under 
DOE.
    We are morphing that now to be a test and evaluation and 
technical assistance entity in support of first responders. I 
mentioned the 13th IPT. We really have a heightened emphasis on 
our service to the first responders who are the Nation's heroes 
and on the front lines of homeland security every day.
    So to the extent that we can provide the first responders 
with technical assistance and test and evaluation of equipment 
that they would need in their homeland security role, that is 
what we plan to do at EML.
    We are developing a strategic plan for EML that I think 
will be completed. We will brief that to the new under 
secretary and to the deputy secretary and the secretary when 
that is ready, and I expect that to be in the next couple of 
months, and they will start executing that plan.
    I think using New York as a test bed, with the various, 
obviously, high-profile activities that go on there, the port 
authority and all of those homeland security-centric things, it 
is a prime location and it is a prime capability, and I really 
look forward.
    I think the leadership up there is ready to go and do that.
    Ms. Clarke. I am glad to hear you say that, Mr. Buswell.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from California, Mr. Lungren, for questions.
    Mr. Lungren. Thank you very much.
    Dr. Krohmer, the budget request for planning and 
coordination, as I understand it, has been cut by about $3.3 
million.
    Can you tell me where there was the cut for this?
    Then, second, according to the budget, there is no specific 
funding request for pandemic activities.
    Is that because it is included somewhere else or is there 
some reason we don't have it this year?
    Dr. Krohmer. The overall cut in Office of Medical Readiness 
was part of the administration's overall budget reduction 
strategy, and we are working very closely through the office to 
modify activities so that we are able to continue many of the 
activities that have been on-going.
    You had mentioned the national biodefense architecture and 
that is a program that is very important to the office and that 
working with some of our partners, we are hoping that we will 
be able to continue.
    We have made some staff adjustments to try and address 
that.
    The issue of pandemic influenza activities, we are talking 
about very close or very thoroughly in the Department, working 
with the CFO and the under secretary of management, and it is 
unclear at this point exactly where additional pandemic 
influenza requests may come from, whether it be the Office of 
Health Affairs or management.
    We are working within the Department right now to address 
those issues.
    Mr. Lungren. So I guess what I am trying to get at is at 
least throughout the country, there was concern about pandemic. 
We are concerned about what may happen in September with the 
second wave of swine flu, to whatever extent it is.
    It just struck me as perhaps timely that that be a specific 
project area and that is why I was--while you suggested you are 
looking for areas where we might be able to respond to it, why 
there would not be a funding request for pandemic activities 
specifically.
    Dr. Krohmer. I suspect that there will be a request. We are 
working within the Department just to identify, because of the 
overall departmental nature and the supplies and logistics 
storage, whether that should be handled most appropriately 
within the Office of Health Affairs or within the management 
directorate.
    We were able, with the H1N1 incident that we have had so 
far, to use some of our carryover pandemic funds to acquire 
additional antivirals and personal protective equipment earlier 
this spring that had not been acquisitions that had been 
anticipated.
    So we are continuing to move forward with that.
    Mr. Lungren. As I read the mission statement for the Office 
of Health Affairs, it says OHA, ``leads the department's role 
in developing and supporting a scientifically rigorous, 
intelligence-based biodefense and health preparedness 
architecture to ensure the security of our nation in the face 
of all hazards.''
    Yet, I don't see any specific funding request for the 
national biodefense architecture.
    Is there a reason for that?
    Dr. Krohmer. As a result of some of the budget constraints 
that we were placed under, we have been looking at all of the 
programs within the office.
    We felt that we were able to continue the activities of the 
biodefense architecture by making some modifications in 
personnel and support activities.
    Mr. Lungren. So you couldn't use additional money 
effectively.
    Dr. Krohmer. We would be able to use any money that is 
available very effectively, yes, sir.
    Mr. Lungren. So if we stimulated your budget, you would be 
able to use it in an effective fashion.
    Dr. Krohmer. We would.
    Mr. Lungren. Just one of the concerns I have got. When the 
Federal Government tries to do everything for everybody else, 
maybe we don't do all the things we are supposed to be doing at 
the present time.
    Mr. Buswell, you mentioned the area of cybersecurity, and I 
am very supportive of the administration's announced emphasis 
in that area going forward.
    What specifically is the S&T directorate doing in terms of 
prioritizing cybersecurity?
    You mentioned that you tripled the amount of money directed 
toward that. But in what way is that going to be used?
    Mr. Buswell. In a couple of very important ways. No. 1, let 
me make it clear that the National Programs and Protection 
Directorate within the Department, NPPD, and the under 
secretary for NPPD have the lead for the Department in 
cybersecurity.
    So they are our customer, if you will, in the cybersecurity 
world and identify the requirements for us.
    The work that we are doing is work that, one, the private 
sector is not doing, first of all, for a number of reasons and 
that has to do with investing in things like test beds, data 
sets that can be used to understand the cyber threats, and 
allow all comers to use those facilities in order to develop 
cybersecurity.
    I am very mindful of the fact that we don't deploy the 
technology. We develop the technology and especially in the 
cybersecurity and infrastructure, other infrastructure 
protection kinds of roles, much of this is deployed by the 
private sector.
    So we have to keep them closely involved with all the 
development that we are doing and make sure that what we are 
doing and what they are doing, we are not duplicating, first of 
all, because $37 million, quite frankly, is not a lot of money 
in the grand scheme of cybersecurity.
    But I will be happy to provide a complete answer for the 
record.
    Mr. Lungren. Thank you.
    Ms. Clarke. I fully support Doug Mullen's work on 
cybersecurity and S&T, and I think his budget should be raised 
even more.
    Having said that, I would like to acknowledge the gentleman 
from New Mexico, Congressman Lujan.
    Mr. Lujan. Thank you very much, Madam Chairwoman.
    If I may, the first question I will be addressing our 
experts with will be a follow-up, I think, on what our Ranking 
Member was asking about cybersecurity.
    But first and foremost, I want to thank everyone for their 
testimony today.
    As you know, in New Mexico, we have a few laboratories, 
Sandia National Laboratory and Los Alamos National Laboratory, 
of which Los Alamos National Laboratory is my district.
    They are working on developing a range of technologies 
which could be utilized to provide some of the resources, some 
of the technology, I think, that could enhance what we are 
talking about today from a homeland security perspective, many 
of which may already be in use and some of the modeling 
capabilities already in practice within the Department of 
Homeland Security.
    I am pleased that Mr. Buswell, in his prepared remarks, 
touched upon the dynamic partnership between the laboratories 
and the Department of Homeland Security.
    In recent years, specific projects that have worked in 
conjunction with the Department at Los Alamos are the magnet 
airport scanner and the national infrastructure simulation and 
analysis center, which I believe was utilized to assist our 
Nation in being able to adequately prepare for H1N1, as well.
    In the area of cybersecurity, with the specific 
partnerships that do exist and as we are looking for compiling 
the necessary datasets to be able to truly understand the 
threats, some of these are already in use and in place in many 
of our national laboratories.
    I am more familiar with those at Sandia National Laboratory 
and Los Alamos, and I would encourage that the Department look 
to our national laboratories to be able to build upon the 
expertise that is in there, especially as the President is 
moving to bring some attention to what we as a Nation need to 
be doing to adequately protect ourselves from cybersecurity 
attacks, as well the dollars that can be saved to both business 
and the Federal Government and governments, State and local and 
tribal, within the United States.
    So I appreciate that very much and would ask you to touch 
upon that in a minute, as well.
    A few things, Madam Chairwoman, that I would like to 
specifically ask, if there is no objection, to be able to ask 
that the Office of Inspector General's report, which is 
included in our remarks today, from the Department of Homeland 
Security, dated August 2008, document OIG-085B, entered into 
the record.
    Ms. Clarke. Without objection.*
---------------------------------------------------------------------------
    * The information referred to has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Lujan. Madam Chairwoman, the reason I ask that is on 
pages 26 and 25 of this report, it talks about some of the work 
that needs to be done for basic research projects that can be 
improved upon, whether it is selection process or how we can 
truly work with tribal governments, with our first responders.
    The report details, by the inspector general, that there is 
very little funding to address the first responders' needs, and 
that is listed on page 24 here.
    So, again, I know that we have made this request before. I 
know our colleague, Mr. Bill Pascrell, typically speaks out on 
behalf of our first responders, especially our firefighters.
    I would encourage that we continue to work closer there, as 
well as S&T'S inability to secure technology transfer 
agreements.
    One of the areas that we can take advantage of not only our 
laboratories, but our bright minds in our Nation is to support 
tech transfer opportunities that exist from the research 
investment that we as a Nation are making within our 
laboratories.
    I would encourage that we look to see what we can do to get 
those to market to protect our Nation and to provide the level 
of security that we need.
    But the doors that can be opened up for small business 
opportunities, to be able to encourage economic growth and job 
creation are second to none, and would like to hear a little 
bit about that, Madam Chairwoman.
    Maybe if I would be indulged with a second round of 
questions, that I would get a chance to hear about everything 
that I am trying to bring up now.
    The last, Madam Chairwoman, is on pages 27 and 29 of the 
report, one of the things that I hope that we can see changes--
the report outlines that in 2007, the under secretary selection 
process that was identified through the inspector general's 
report was such that items were undocumented. There was a 
question of pre-selection for some of these projects.
    One thing that we can't afford to do is not to allow the 
latest and greatest technology, ideas that can be proven, that 
can work, to be able to have an opportunity to provide a level 
of support to those that need the help as opposed to saying, 
``Well, we think these are the best one and I know these 
people, so let's go help them.''
    I would hope that what we learn from that process is that 
when we go forward, that we are able to document adequately the 
selection criteria, how the projects move forward. So that if 
there is ever a question in the future, we are all able to come 
back and talk about what we learned from it.
    Whether they were good selections or not, we are able to 
document it. It is not a matter of trying to hide the selection 
process. It is a matter of being open about it so we can learn 
what we can do better.
    So thank you, Madam Chairwoman. When I get an opportunity, 
I will follow up on those questions and I will do more 
listening for the second round as opposed to more speaking.
    Ms. Clarke. Mr. Lujan, you sure had a lot on your chest 
there.
    We will be doing a second round of questions now, 
gentlemen.
    I recognize myself for 5 minutes.
    Mr. Buswell, in the 2008 inspector general review of the 
S&T directorate, the IG stated that the S&T should develop a 
more rigorous process for identifying, prioritizing, and 
selecting HIPS and HITS projects, and ensure the process 
documents the reasons behind the selection.
    Additionally, the IG suggested that the under secretary 
delegate the responsibility for managing the HITS/HIPS process 
to the director of innovation at HSARPA.
    Have you notified the IG about completing these outstanding 
requirements and did former under secretary Cohen establish 
procedures for documenting selection of future HIPS and HITS? 
Did he assign the director of innovation responsibility to 
identify and select these projects?
    Mr. Buswell. In short, yes, ma'am he did and, yes, we 
have--I think we have closed this out with the IG.
    The process that we put in place--and we also have to put 
in context that the innovation portfolio was brand new starting 
in December 2006 and was jump-started with a handful of 
projects that then-under secretary Cohen identified as being, 
well, innovative.
    So that, in itself, was a necessary thing to do to jump-
start that portfolio, but the IG had it exactly right in that 
we needed to formalize the process going forward.
    We have done that. The process, as it now stands, the 
directorate of innovation, HSARPA, collects recommended 
projects from really all comers. It can come from within the 
Department. It can come from within Science and Technology 
Directorate. It can come from the private sector. It can come 
from universities, come from laboratories.
    Those are categorized and analyzed for operational impact, 
first of all, and then do they fit the innovation model. In 
other words, is this a high-risk, high-gain kind of thing?
    He makes a proposal to the S&T corporate board, which is an 
entity that is made up of the six division heads for each of 
the technical divisions and the three portfolio managers, the 
basic research portfolio, the transition portfolio and himself 
as the innovation portfolio manager.
    That recommendation comes to me in priority and then, with 
my concurrence, it gets presented to the under secretary.
    That, I think, is an adequate process. But what we have 
done is we have taken it one step further in that we then 
present those projects to the technology oversight group, which 
is chaired by the deputy secretary and, also, consists of the 
under secretary for management and the under secretary for NPPD 
and all of the--they are the voting members--and all of the 
members of the operating components are free to participate in 
that meeting, in that group, for their concurrence that these 
do represent capabilities that would be of priority to the 
Department and the homeland security enterprise in general.
    So we did that with the fiscal year 2010 process, budget 
development process and the two new starts that we have 
proposed in the budget submission were approved--were developed 
and approved in that way.
    Ms. Clarke. That sounds great.
    Mr. Buswell, would you just present us with some follow-up 
documentation on the process, as you have described it?
    Mr. Buswell. Yes, ma'am, I would be pleased to.
    Ms. Clarke. Thank you very much.
    I have a follow-up question to you. In looking at the 
increase and decrease in the funding of individual research 
areas, such as border and maritime, chemical and biological, 
explosives, human factors, et cetera, the committee presumes 
that the budget request numbers reflect the interests and needs 
at this particular time of other DHS component agencies in the 
current state of agreement and projects pursuant to integrated 
project teams.
    Is this the case? If so, can you please tell us what, with 
specifics, led you to increase or decrease specific research 
projects? If not, can you tell us what else drove the decision?
    Mr. Buswell. Well, in the next 25 seconds, I will be happy 
to. The short answer is, yes, they do reflect the priorities of 
the capstones that have been developed in the capstone IPT 
process, for the most part.
    Now, remember, that is only 50 percent of the directorate's 
budget. The other percentages are in the basic research and in 
the innovation portfolios and those are also guided or informed 
by the IPT process.
    So if you need additional information beyond what is in the 
justification for the budget request, we will be happy to 
provide that as to the incremental changes within those PPAs.
    But the general answer is, yes, those reflect our 
customers' priorities.
    Ms. Clarke. Very well. Thank you very much, Mr. Buswell.
    I now recognize the gentleman from California, Ranking 
Member Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    Mr. Buswell, I mentioned in my opening statement the fact 
that I was very pleased that your borders and maritime section 
is building, demonstrating, and transitioning the first phase 
of an improved capability so that we could detect the 
semisubmersible self-propelled vessels to customers.
    We have been looking at that as a problem of drug running, 
which it has been to this point in time, but as the Washington 
Post article suggested, it has been a pretty good delivery 
system for drugs into this country where they can't be 
detected.
    Wouldn't it be a possible delivery system by terrorists for 
a nuclear device? Of course, we have the DNDO operation, which 
is specifically directed toward making sure that we don't have 
those devices delivered here.
    With that in mind and with the work that we have been doing 
under DNDO and hopefully get through the certification and we 
have enhanced detection at our ports of entry, are we giving 
sufficient attention to the problem of the semisubmersibles and 
the possible delivery system?
    Is this just a drop in the bucket in terms of what you are 
doing, or is it truly a serious effort in this regard?
    Mr. Buswell. Yes, sir, it is a serious effort, and we will 
need to do more, clearly.
    This first effort is really working at identifying the 
capabilities that may exist already nationally, whether those 
are national overhead assets or Navy assets.
    As you may be aware, I spent the first 25 years of my adult 
life driving submarines. So I am very familiar with the 
difficulty that exists in finding those kinds of platforms.
    These aren't even really true submarines. I mean, they 
really are surface ships with a very low profile.
    Mr. Lungren. They cost $1 million to build. They bring a 
payload of $100 million in. They have been very successful. The 
law we passed is because they scuttle them. They can lose $100 
million because they just do the next one.
    But the law helped us prosecute those ones we can detect. 
The question is: How many are we not detecting? If that proved 
to be a successful delivery system, I am very concerned about 
it being--we can spend all the time we want in terms of 
protecting against these ports of entry, and we are spending a 
tremendous amount, because we see all these cargo containers 
coming in and we realize what an opportunity there.
    I don't want us to stop our dedication to that, but I am 
concerned about this other thing.
    So your background helps us consider the seriousness of 
this problem and I appreciate that. I just hope others in the 
Department and throughout Government share that.
    Let me ask you this, and maybe it is for you, maybe it is 
for Mr. Gallaway. That is: Does your Department at all get 
involved in the impact of an EMP attack on this country?
    Mr. Buswell. I can take a stab at that. I know that the EMP 
and the potential threat to the infrastructure of this country 
is something that the Office of Infrastructure Protection has 
looked at.
    The commission issued the report last year on EMP attacks, 
was widely distributed and read and considered. I have 
discussed this with Jim Snyder, the acting assistant secretary 
for infrastructure protection, to see if there were research 
and development needs that he identified and what he told me 
was they factored that threat, along with all the other 
threats, into their annual risk assessment and, currently, he 
doesn't see any research and development needs that are of a 
priority that he would ask us to sacrifice other programs in 
support of----
    Mr. Lungren. Okay, let me ask the question this way. So, 
evidently, there is nothing that is going directly to you. But 
because of your experience, you know the report was out there 
of the commission. You have read the report. It has been out.
    Do you get any sense of urgency throughout the Department, 
throughout the Government, either on the Hill or out there, 
that we are seriously enough considering that?
    Mr. Buswell. I think it is being very seriously considered. 
I am just not sure that there is a consensus or that we have 
finalized where that falls among all the other potential 
threats and vulnerabilities that we have and where we can best 
expend resources in order to harden our infrastructure against 
those kinds of attacks.
    Mr. Lungren. It just strikes me that at least one way of 
launching an EMP is, obviously, a missile that hits a certain 
altitude, so to speak, and explodes the nuclear device.
    You don't have to have an accurate missile and those rogue 
nations and transnational organizations might be able to get 
their hands on that and we would breathe a sigh of relief 
because they are not very accurate. That doesn't go into the 
question.
    I am just concerned about whether any of us have 
internalized the seriousness of that such that we understand 
not only the possibility of that occurring, but we understand 
the consequence of that occurring.
    Thank you very much, Madam Chairwoman.
    Ms. Clarke. Thank you, Member Lungren.
    You may be aware that there is going to be a group meeting 
at the Capitol Hill Club tomorrow. I will be addressing them on 
that very topic.
    You are absolutely correct. I couldn't agree with you more. 
This is an area that we need to really focus on much more than 
we do.
    At this moment, I would like to acknowledge Mr. Lujan, of 
New Mexico, for 5 minutes.
    Mr. Lujan. Thank you, Madam Chairwoman.
    Madam Chairwoman and Mr. Lungren, one other piece of 
information I would like to get for you on that point is there 
was an article that I read where recently--I don't know if it 
was a satellite or something that had to be brought down, but 
we had one shot to do this and it had to be precise, because it 
had to be broken up in such a way that it wouldn't--when it 
entered into the atmosphere, that it wouldn't hit anything or 
that it would fully disintegrate, and they did it.
    So I will make sure that I get the information on that and 
we will put it together, and that might be something for us to 
talk about as we collaborate on those ideas together.
    Madam Chairwoman, as I stated earlier, I asked a lot of 
questions about education, cybersecurity, detection, national 
laboratories, process improvements, in each of those areas.
    So, Mr. Buswell, if we could begin with you and just share 
a little bit from the panel.
    Then I would follow up with one question pertaining to the 
budget request to an 8.5 percent cutting university programs 
and to see what we could truly do, again, to be able to take 
advantage of some of the brightest minds, from an educational 
perspective, to make sure that we have an avenue for them to 
assist us in solving some of these problems.
    Mr. Buswell. Yes, sir. I took some notes as you were 
talking in your first 5 minutes. Let me sort of tick down this. 
We have taken very seriously the IG report that you referenced 
and had entered into the record.
    We are working--I think we have closed out everything 
except for the basic research aspect that you are discussing, 
that you mentioned.
    The national laboratories, universities are the primary 
providers of the basic research that we fund. Centers of 
excellence that comprise most of the university programs' 
funding that you mentioned took a slight reduction are very 
important for two reasons.
    No. 1, we develop centers that will be of enduring value to 
homeland security. So these are capabilities that will last 
long after their funding from us has ended and they will be out 
on their own gathering funding from all sources in order to do 
this kind of work, and we think that is very important.
    The second has to do with the scholars and fellows program. 
We fund a number of--near 100 scholars and fellows and over 450 
over the course of the program over the last 4 or 5 years.
    These are people who are doing their undergraduate and 
graduate work in disciplines, technical disciplines that are 
relevant to homeland security. We are looking to place those at 
national laboratories, like Los Alamos or Sandia, that are 
truly the long-term and the foundation of the research within 
the country.
    There is a reason they are called national laboratories. 
They really are a national asset.
    As far as the private sector engagement, which you also 
mentioned, let me just talk a little bit about that. The 
public/private partnerships are a win-win-win for the 
Government, for the private sector, and for the taxpayers.
    I have found that you get a faster speed of execution when 
the private sector is involved, because they are interested in 
a return on the investment that they are making in the effort.
    It creates jobs, it creates revenue through the development 
of a marketable product, not through slipping and trading, but 
development of a product and, under certain circumstances, I 
think we can actually do that with minimal taxpayer investment.
    A couple ways that we approach this. This is the output of 
the capstone integrated product team process, and we publish 
this every year. This is the one that we just put out in May. 
These are our high priority technology needs, and this is for 
everyone to see and everyone to participate in.
    We have a long-range broad agency announcement in place 
where people have the ability to come in with very simple, 1- 
to 2-page white papers that address the needs that we have 
identified with the technology that they have developed.
    It doesn't cost them a lot of bid and proposal funding to 
build these things. We received about 350 such white papers in 
fiscal year 2008, in the last fiscal year.
    Out of that, we requested about 50 full proposals and we 
funded about 30 of those. So we are getting participation from 
the private sector and we are using those resources in a way 
that the country can appreciate.
    There are a number of other things that we are doing from 
stakeholder outreach to commercialization that I would be happy 
to get you additional details on.
    But I think our engagement with the private sector is one 
of the things that we have really worked on over the last 2 
years, and I think that is working pretty well.
    Ms. Clarke. I want to thank the witnesses for their 
valuable testimony here today, and the Members for their 
questions.
    The Members of the subcommittee may have additional 
questions for the witnesses. We will ask you to respond 
expeditiously in writing to those questions.
    Hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 3:12 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairwoman Yvette D. Clarke of New York for Bradley I. 
 Buswell, Acting Under Secretary, Science and Technology Directorate, 
                    Department of Homeland Security
    Question 1. What are the most significant challenges for the S&T 
Directorate that you have discovered over the last 3 years, and how 
will you recommend the next under secretary resolve some of these 
problems?
    Answer. When Under Secretary Cohen joined the Science and 
Technology (S&T) Directorate, he identified four areas for improvement: 
Organization, people, books, and program content. The S&T made 
substantial improvements in all four areas over the past 3 years. The 
organizational structure is stable and has proved effective. Morale and 
employee satisfaction has improved and many vacancies have been filled. 
The S&T now has one set of financial books. Customers now drive the 
program content and the Directorate's investments through the 
Integrated Product Team process.
    The S&T's employee satisfaction is now on par with the rest of the 
Federal Government after being rated among the lowest in the Government 
4 years ago. Work force improvement continues as we are already working 
to assess which job positions are most appropriately and cost-
effectively held by a contractor or a Federal employee. Combined with 
this initiative, S&T will continue to fill vacancies to achieve a full, 
steady-state staff.
    The S&T's financial management and budget controls have been 
praised by Congress as an area of significant improvement, but we must 
remain vigilant to ensure that these new processes and practices 
continue. DHS is in the process of selecting and moving to a new 
financial system for better fiscal management and S&T's 5-Year Research 
and Development (R&D) Plan has become a bridge between the budget and 
the programs. It needs to continue to capture and define the 
Directorate's program for years to come to support a stable research 
budget and agenda.
    The 5-Year R&D Plan is also crucial to documenting and maintaining 
the appropriate R&D program content at S&T. Our customers must continue 
to inform the content of the S&T's research investments. New methods 
for broadening customer involvement, such as standing up a Capstone 
Integrated Product Team (IPT) for first responders, are already being 
executed. These practices need to continue to receive support from 
within S&T and across the Department.
    Going forward, S&T must continue to improve its work force, 
financial processes, and research investments while keeping the 
organization stable. The S&T will continue to refine its process for 
determining investments. Further strengthening program content will 
enable the Directorate to direct its investments to R&D that achieves 
the most significant benefit for homeland security. Implementing these 
improvements will require the next under secretary to continue to 
exercise leadership and promote cooperation across all DHS components 
and with the first responder community to identify operational 
requirements that can be implemented by the public and private sectors.
    Question 2. What role do you see for the National Labs in 
supporting DHS?
    Answer. The Department of Energy (DOE) National Laboratories play a 
critical role in meeting the broad range of research and development 
(R&D) requirements associated with the mission of securing the 
homeland. The DOE National Labs provide the Department of Homeland 
Security (DHS) with world-class facilities and more than 30,000 
scientists and engineers performing cutting-edge homeland security 
research. On-going homeland security-related research at the National 
Labs examples include: Enhancing transportation security through 
development of advanced screening and detection technologies; designing 
multi-scale modeling and simulation capabilities in the event of a 
biological attack or a disease outbreak; and designing resilient 
electric grid technologies to ensure better protection of our Nation's 
critical infrastructures.
    In fiscal year 2009, 10 DHS components, including the Science and 
Technology (S&T) Directorate, used the National Laboratories for 
homeland security-related R&D. The DHS's partnership with the National 
Laboratories will continue to make significant contributions to the 
homeland security mission in coordination with S&T laboratories, DHS 
Centers of Excellence, and other DHS R&D-related entities.
    Question 3. What are your plans for the Environmental Measurements 
Lab in New York City?
    Answer. The Science and Technology (S&T) Directorate plans to 
continue operations at the Environmental Measurements Laboratory (EML), 
which historically has focused on research and development (R&D) in the 
areas of radiological and nuclear threats. As S&T moves forward with 
its efforts in the area of first responder technologies, EML's mission 
is being re-focused toward being a dedicated laboratory for test and 
evaluation of first responder technologies. The laboratory's New York 
City location, experienced staff, and established trusted relationships 
with key New York City regional entities, are significant assets for 
conducting field and laboratory-based tests with our local partners in 
the first responder community.
    Question 4. Your testimony mentions the sale of Plum Island. 
Approximately how much do you expect to realize from that sale? How 
much will the Plum Island site clean-up cost, and is your expected sale 
price net of clean-up costs? Will the proceeds of the Plum Island sale 
be sufficient to cover the cost of NBAF?
    Answer. The Department of Homeland Security (DHS) is working with 
the General Services Administration on determining an estimated real 
estate value of Plum Island. The estimated funding needed to clean up 
Plum Island is approximately $200 million. It is expected that the sale 
of Plum Island will provide sufficient funding to cover clean-up, 
construction, and related costs.
    Question 5. Can you describe the role of the Chief 
Commercialization Officer, and what impact this role has had on S&T's 
success?
    Answer. The Chief Commercialization Officer (CCO) leads the Science 
and Technology (S&T) Directorate's Commercialization Office, which was 
established in 2008 to leverage the private sector to rapidly develop 
products and services for the Department of Homeland Security's (DHS) 
operating components and the first responder community. Through this 
office, the CCO provides the private sector with an understanding of 
the market potential for needed homeland security tools and 
technologies, thereby encouraging private sector investment. This has 
directly benefited S&T and other DHS components by strengthening 
private sector interest in developing homeland security tools and 
technologies.
    Specifically, the Commercialization Office identifies DHS and first 
responder technology needs with large market potential and develops 
operational requirements documents that correspond with those needs and 
pushes that information out to private sector vendors. In the past 
year, the Commercialization Office has:
  <bullet> Developed and published for DHS components a variety of 
        books, tutorials, and teaching materials on developing 
        requirements;
  <bullet> Compiled a repository of well over 300 companies, outlining 
        more than 2,000 technologies, products and/or services that may 
        possess alignment to DHS needs;
  <bullet> Published 8 detailed requirement documents with the 
        participation of more than 40 partners. We are developing 25 
        additional documents.
    In addition, the CCO oversees the System Efficacy through 
Commercialization, Utilization, Relevance and Evaluation (SECURE 
<SUP>TM</SUP>) and FutureTECH <SUP>TM</SUP> programs. SECURE 
<SUP>TM</SUP> is a public-private partnership in which DHS leverages 
the skills, expertise, and resources of industry to develop products or 
services aligned to DHS operational requirements documents. FutureTECH 
<SUP>TM</SUP> focuses on delivering Technology Readiness Level 6 
technologies through cooperation with universities, national 
laboratories, and the private sector.
    The Department has quickly recognized the benefits of 
commercialization outreach to the private sector and is in the process 
of integrating commercialization best practices into its Management 
Directive on Acquisition.
    Question 6. The Quadrennial Homeland Security Review began in 2008. 
Do you expect the outcome of this review to change the direction of R&D 
in the S&T Directorate, based on a new assessment of the challenges 
faced by the other directorates? In conducting the Quadrennial Homeland 
Security Review within your own directorate, what input have you sought 
from other agencies, considering your statutory coordinating role for 
all Federal homeland security R&D?
    Answer. The Quadrennial Homeland Security Review (QHSR) will 
include recommendations regarding the long-term strategy and priorities 
for homeland security and guidance on the Department's programs, 
assets, capabilities, budget, policies, and authorities. While this 
will undoubtedly have impacts across the Department in terms of mission 
and priority, it should not result in sweeping changes to the Science 
and Technology (S&T) Directorate's research agenda. The S&T's projects 
currently address the highest priority needs of DHS components; and 
these highest priority core missions are the least likely to change in 
this review.
    Question 7. The DHS S&T budget is small in comparison with the R&D 
budgets of other defense agencies. This makes it imperative that S&T 
spends its money wisely, on projects that have a good chance to 
transition into the field. Of course there is also an obligation on the 
DHS components, who work with S&T on identifying projects that they 
want funded. Can you describe the importance of the Technology Transfer 
Agreements that S&T enters into with the components? How many have been 
signed by the components? Does the fact that components do not sign 
these agreements impact the work that S&T will perform for components?
    Answer. Technology Transition Agreements (TTAs) are non-binding 
agreements developed at the technology product level between the 
Science and Technology (S&T) Directorate and DHS component customers 
and are integral to technology transition. They define the capability 
gap, the technology under development, delivery schedule, performance 
metrics, rough order of magnitude of life-cycle cost, exit criteria, 
and transition responsibilities for technology products. The TTAs also 
ensure that all parties understand the technology being delivered and 
the path to transition the technology. By defining the transition path 
and the responsibilities of the participating parties, TTAs remove the 
ambiguity in technology development and the transition process.
    Of the 251 products currently in the Transition portfolio, 194 
require TTA's. Currently, 75 TTA's have been signed, 53 are in 
negotiation, and 66 are currently in development.
    Absence of a TTA does impact research and development done by the 
S&T Directorate. After appropriate time to develop a TTA, projects 
without TTAs come under increased scrutiny for termination. Lack of a 
TTA is an indicator that the identified customer does not have a plan 
to deploy the technology. During semi-annual reviews of S&T projects, 
program managers identify which projects do not have TTAs. The under 
secretary for science and technology then makes a decision to allow 
further time for TTA development or recommends project termination to 
the relevant Capstone Integrated Product Team and to the Department of 
Homeland Security (DHS) Technology Oversight Group. In cases where a 
project is terminated, resources are applied to other customer-
identified, high-priority requirements.
    Question 8. How will the two new homeland security Federally Funded 
Research and Development Centers (FFRDC) utilize the expertise of 
historically underrepresented colleges and universities?
    Answer. The Federally Funded Research and Development Centers 
(FFRDCs) will use consultants and sub-contractors in carrying out their 
work. Historically underrepresented colleges and universities would be 
considered for sub-contracting opportunities, as well as for consulting 
assignments.
    In addition, the Science and Technology (S&T) Directorate's Office 
of University Programs (OUP) will work to extend its career development 
programs to the new FFRDCs. The OUP presently has established 
relationships across the Department of Homeland Security and the 
Department of Energy national laboratories to place students from its 
education and science and technology career development programs, 
including the Minority Serving Institutions program, in internships and 
post-graduate positions. The OUP will target its career development 
programs more specifically to fill the jobs needed at Federal 
laboratories and research facilities with homeland security 
responsibilities.
    Question 9. In the 2008 Inspector General review of the S&T 
Directorate, the IG stated that S&T should develop a more rigorous 
process for identifying, prioritizing, and selecting HIPS and HITS 
projects, and ensure the process documents the reasons behind the 
selections. Additionally, the IG suggested that the Under Secretary 
delegate the responsibility for managing the HITS/HIPS process to the 
Director of Innovation/HSARPA. Have you notified the IG about 
completing these outstanding requirements? Did former Under Secretary 
Cohen establish procedures for documenting the selection of future 
HIPS/HITS? Did he assign the Director of Innovation responsibility to 
identify and select these projects?
    Answer. Yes, the Science and Technology (S&T) Directorate provided 
a formal response in December 2008 to recommendations in the inspector 
general's report, ``The Science and Technology Directorate's Processes 
for Selecting and Managing Research and Development Programs, 2008''. 
The response outlined S&T's process for identifying, prioritizing, and 
selecting new HIPS and HITS projects. The S&T Directorate officially 
documented this process in the latest revision of its Science & 
Technology Organization Regulation Manual (STORM) and used the process 
to select new HITS and HIPS projects proposed in the fiscal year 2010 
President's budget. As recommended by the IG, the Director of 
Innovation/HSARPA plays a key role in identifying and selecting 
projects, as follows:
  <bullet> The process begins with gathering ideas for potential new 
        HIPS and HITS. These ideas come from documented needs of DHS 
        customers; solicitations and proposals; discussions with S&T 
        stakeholders; technology conferences and symposia; university; 
        laboratory and industry interaction; and international 
        collaboration. Then the ideas are gathered by the HSARPA staff 
        as well as other S&T members including the six division heads.
  <bullet> The director of Innovation/HSARPA screens the list of 
        potential projects to ensure that they meet the fundamental 
        philosophy of the innovation portfolio, namely that though they 
        still contain high risk, they offer substantially higher payoff 
        than programs currently handled in the transition portfolio or 
        an actual acquisition program of record. The director then 
        presents this list of recommended new start HIPS and HITS to 
        the S&T Corporate Board to ensure the recommended efforts are 
        not redundant with efforts already under way, and to obtain 
        corporate board agreement that the recommended projects are 
        neither more appropriate for the basic research or transition 
        portfolios.
  <bullet> Following concurrence by the corporate board, the Director 
        of Innovation/HSARPA presents the list of recommended new 
        starts to the deputy under secretary for science and technology 
        and the under secretary for science and technology for 
        concurrence.
  <bullet> The final phase of the approval process takes place annually 
        when the under secretary for science and technology presents 
        the recommended new starts to the DHS Technology Oversight 
        Group (TOG) for approval.
  <bullet> Following approval by the TOG, the Director of Innovation/
        HSARPA works with the S&T's chief financial officer to ensure 
        the appropriate level of funding is requested in the 
        President's budget.
    Question 10. The S&T budget zeros out the $5 million core funding 
for the Homeland Security Institute (HSI), presumably to indicate that 
the Department's Federally Funded Research and Development Center 
(FFRDC) has been re-bid. The plan was to have HSI replaced by two new 
FFRDC's: the Studies and Analysis Institute, and Systems Engineering 
and Development Institute. The budget provides $5 million for the 
first, and no mention of the second. Please explain.
    Answer. The Homeland Security Institute (HSI) contract expired in 
April 2009, and a new Federally Funded Research and Development Center 
(FFRDC) was established to conduct strategic studies and analysis for 
the Department of Homeland Security (DHS). Funding for the core 
research activities of the new FFRDC, the Homeland Security Studies and 
Analysis Institute (HSSAI), is included in the fiscal year 2010 budget 
request.
    The other new FFRDC, the Homeland Security Systems Engineering and 
Development Institute (HSSEDI), was established to provide DHS and the 
homeland security enterprise with program-level concept evolution, 
system-of-systems development integration, and homeland security best 
practices in lifecycle systems engineering and program (acquisition) 
management. The HSSEDI has a different business model, one in which its 
funding will be solely task-based, and that has no core research budget 
requested. Rather, each task will be funded directly by the requesting 
DHS component.
    Question 11. The budget requests an 8.5% cut in the University 
Programs portfolio. The committee is concerned with this because of our 
strong support of university programs in general, and more specifically 
the great value that should be placed in basic scientific research, 
which University Programs usually conduct. What is the decision for the 
decrease?
    Answer. The President's fiscal year 2010 budget request for the 
Office of University Programs (OUP) is $4.3 million less than the 
fiscal year 2009 enacted budget. Of the $4.3 million reduction, $2 
million supports a homeland security project at the Naval Post Graduate 
School (NPS). The fiscal year 2010 request moves this $2 million from 
OUP to Transition Division, which will continue the field testing 
objectives that are the central focus of the NPS project. The remaining 
$2.3 million represents the actual program change to OUP. With this 
relatively small reduction and additional funding anticipated to be 
forthcoming from Science and Technology (S&T) Directorate divisions and 
DHS components in fiscal year 2010 to support the Centers of Excellence 
(COE) research, S&T should be able to continue supporting mission-
critical activities in the DHS COE, the Minority Serving Institutions 
Program, and Education Programs.
    Question 12. Due to some serious problems with Testing and 
Evaluation on important Domestic Nuclear Detection Projects, the 
committee supports the idea of a separate office within the Department 
whose sole responsibility is conducting operational and performance 
testing. Will the Department's Testing and Evaluation/Standards Office 
have this responsibility? Your budget documents state that [t]he Test & 
Evaluation and Standards programs provides policy and oversight of the 
Department's test and evaluation program. There does not appear, 
however, to be a budget for actual test and evaluation activities. 
Please explain.
    Answer. The Science and Technology (S&T) Directorate's Test and 
Evaluation and Standards Division (TSD) and Director of Operational 
Test and Evaluation (DOT&E) are responsible for approving and 
overseeing the developmental and operational Test and Evaluation 
activities for major DHS acquisition programs, including the approval 
of test and evaluation master plans (TEMPs) and Operational Test Plans. 
The DOT&E is also a member of the Department of Homeland Security (DHS) 
Acquisition Review Board responsible for providing an independent view 
of the status of major programs to decisionmakers. The Department 
requires each major program to identify an independent Operational Test 
Agent to conduct Operational Test and Evaluation that must be approved 
by DOT&E.
    The DHS components fund for each program's Test and Evaluation 
activities (e.g. U.S. Customs and Border Protection budgets for SBINet 
testing and the Domestic Nuclear Detection Office budgets for Advances 
Spectroscopic Portal Testing). The TSD and DOT&E personnel provide 
guidance and oversight only. The personnel expense of conducting the 
oversight is included in S&T's Management and Administration budget 
which pays for all S&T Federal employees' salaries and expenses. There 
is also funding in the Test and Evaluation and Standards budget that 
covers the cost of subject matter experts needed to support some of the 
reviews.
    Question 13. The Chairman is very concerned about the risk posed to 
the Nation's electric grid and other critical infrastructure by an 
Electromagnetic Pulse. As such, it is our intention, as part of our 
authorization, to include language that will reauthorize the EMP 
Commission. He also believes that the Commission should be a great 
asset to the Department, and as such, could function in the near term 
as a DHS task force. However, we seem to be getting a lot of pushback 
from the Department in our initial discussions with the Infrastructure 
Protection division. Do you agree on the value of the Commission? Do 
you believe that such a task force would interface better with S&T than 
IP?
    Answer. When the Electricmagnetic Pulse (EMP) Commission's report 
was finalized, the Department of Homeland Security (DHS) engaged the 
Department of Defense to brief the Cross-Sector Cybersecurity Working 
Group in September 2008. All 18 critical infrastructure sectors were 
represented by both Government and industry personnel. Additionally, 
the President's National Security Telecommunications Advisory Committee 
examined the potential threat and impact of an EMP attack to the 
physical assurance of the core communications network and released a 
report on November 6, 2008. The DHS continues to look at the control 
systems implications of an EMP attack.
    The EMP Commission exhaustively studied the effects of EMP on 
infrastructure; and DHS included the EMP Commissions' findings in its 
internal risk assessment process. The work of the EMP Commission is 
completed for the foreseeable future.
    I believe the Infrastructure Protection division is the proper 
organization within DHS to work with the EMP commission.
    Question 14. In looking at the increase or decrease in funding of 
individual research areas such as Border and Maritime, Chemical and 
Biological, Explosives, Human Factors, etc, the committee presumes that 
the budget request numbers reflect the interest and needs at this 
particular time of other DHS component agencies and the current state 
of agreements and projects pursuant to Integrated Project Teams. Is 
this the case? If so can you please tell us what specifics led you to 
increase or decrease specific research budgets? If not, can you tell us 
what else drove your decisions?
    Answer. Yes, the Science and Technology (S&T) Directorate used the 
Capstone Integrated Product Team (IPT) process to develop the fiscal 
year 2010 budget request. The major programmatic changes by research 
area are as follows:
  <bullet> Borders and Maritime Security.--The fiscal year 2010 
        increase funds maritime security requirements identified by the 
        Maritime Security IPT and Urban Tunnel Detection basic 
        research.
  <bullet> Chemical and Biological.--The fiscal year 2010 increase 
        supports the initiation of the Multiplex Detection Technology 
        project. This project will develop a technology to address 
        food-borne pathogens in food and clinical sample matrices; 
        detect biological threat agents in food, clinical, water, and 
        environmental sample matrices; detect foreign animal disease 
        from animal samples; and cover a wide variety of other 
        pathogens of interest in a variety of sample matrices. This 
        will provide multiple Federal partners with a tool to meet 
        their ever-demanding needs for preparedness and support of the 
        National Bio-Defense Strategy through rapid detection for rapid 
        mitigation.
  <bullet> Command, Control and Interoperability (CCI).--The fiscal 
        year 2010 increase will enable CCI to fund cyber security 
        research and development applied towards cyber security 
        priorities identified in the Comprehensive National 
        Cybersecurity Initiative (CNCI). Specifically, this effort will 
        develop enduring leap-ahead technologies to secure the Nation's 
        critical information infrastructure (energy, transportation, 
        telecommunications, banking and finance, and others) and 
        networks.
  <bullet> Explosives.--The fiscal year 2010 increase supports the High 
        Throughput Air Cargo Screening projects. The High Throughput 
        Air Cargo Screening project is developing technologies for the 
        Transportation Security Administration. The requested funding 
        will support the objective to screen 100 percent of air cargo 
        by developing high throughput screening technology suitable for 
        cargo screening applications and filling the current technology 
        capability gap. The increase in fiscal year 2010 also supports 
        Counter-Improvised Explosive Device (IED) Research in the 
        Transportation Security IPT, specifically the Person-Borne IED 
        project. This funding will enable S&T to build upon existing 
        research programs and improve large threat mass detection for 
        large areas, such as mass transit and special events.
  <bullet> Human Factors.--The increase in fiscal year 2010 reflects 
        additional support for efforts in the Biometrics, Suspicious 
        Behavior Detection, and Human Systems Research, and Engineering 
        Programs.
  <bullet> Infrastructure and Geophysical.--The fiscal year 2010 budget 
        request increases research and development of first responder 
        technologies such as 3-D locators, physiological monitors, and 
        extremely strong, lightweight, resilient materials (compared to 
        the fiscal year 2009 budget request). The fiscal year 2010 
        budget request does not include the National Institute for 
        Hometown Security and the Southeast Regional Research 
        Initiative.
  <bullet> Innovation.--The fiscal year 2010 increase will fund 
        existing programs whose scopes increase as they mature and will 
        allow for new starts projects in the area of multi-modal tunnel 
        detect, where capabilities are currently non-existent to 
        inadequate; and low-cost biological detection, which could 
        result in huge gains in capability for DHS.
  <bullet> Transition.--The fiscal year 2010 increase million provides 
        funding for the First Responder Capstone IPT. This increase 
        will allow DHS to test technologies, assess them for usability, 
        and commercialize them to make the technology solutions 
        available to Federal, State, local and tribal first responders.
  <bullet> University Programs.--The fiscal year 2010 request for 
        University Programs is $4.3 million less than the fiscal year 
        2009 enacted budget. Of the $4.3 million reduction, $2 million 
        supports a homeland security project at the Naval Post Graduate 
        School (NPS). The fiscal year 2010 request moves this $2 
        million from University Programs to Transition, which will 
        continue the field testing objectives that are the central 
        focus of the NPS project. The remaining $2.3 million represents 
        the actual program change to University Programs. With this 
        relatively small reduction and additional funding anticipated 
        to be forthcoming from S&T Divisions and DHS components in 
        fiscal year 2010 to support the Centers of Excellence research, 
        S&T should be able to make up the remaining difference and 
        continue supporting mission-critical activities in the DHS 
        Centers of Excellence, the Minority Serving Institutions 
        Program, and Education Programs.
    Question 15. The committee supports the transition of operational 
aspects of the Integrated Consortium of Laboratory Networks (ICLN) from 
S&T to the Office of Health Affairs (OHA) as soon as possible. The 
committee understands that S&T has wanted to transfer operational 
aspects of the ICLN to OHA for some time now, but that the inability of 
OHA to provide the necessary support has prevented this from occurring. 
How does the money requested in the fiscal year 2010 budget address 
this problem?
    Answer. The Technology Transfer Agreement (TTA) between the Science 
and Technology (S&T) Directorate and the Office of Health Affairs (OHA) 
on the Integrated Consortium of Laboratory Networks (ICLN) identifies 
three conditions for transfer of operational aspects to ICLN: (1) 
Adjudgment that the Integrated Response Architecture (IRA) being 
currently built by the ICLN under S&T leadership is functional as an 
operational system; (2) OHA has identified funds to support the 
assumption of operational aspects; and (3) OHA has identified an 
individual to begin to serve as Chair of the ICLN Network Coordinating 
Group. The target date for the transition as of last fall was December 
2009. On further examination of information technology issues related 
to data flow among laboratory systems to support functionality of the 
Integrated Response Architecture, OHA and S&T agreed to delay the 
transition by 6 months to June 2010. It is anticipated that this 
additional delay caused by technology issues will provide sufficient 
time for OHA to address the commitments it made to support transition 
of operational aspects of ICLN. Regardless of when the transition 
occurs, S&T is committed to ensuring the requisite capability is built 
and functional. Fiscal year 2010 funding allocated to ICLN in S&T 
funding will be applied as necessary to maintain functionality under 
S&T leadership until all conditions necessary to enable transition are 
met.
   Questions From Ranking Member Daniel E. Lungren of California for 
  Bradley I. Buswell, Acting Under Secretary, Science and Technology 
              Directorate, Department of Homeland Security
    Question 1. How is the budget for the S&T Directorate prioritized? 
Does the Department undertake a comprehensive risk assessment, and 
allocate funding requests based on the ranking of the perceived 
threats?
    Answer. The Department of Homeland Security's (DHS) components and 
agencies receive numerous inputs to their prioritization processes 
including intelligence briefings and threat assessments from various 
sources. The knowledge gained from these inputs form the prioritization 
of missions within the components and in turn the components 
prioritization of the research and development (R&D) activities 
requested of the Science and Technology (S&T) Directorate. 
Approximately 50 percent of S&T budget is dedicated to the Transition 
Portfolio which uses Integrated Product Teams to define the highest 
priority capability gaps within the Department. In addition to the 
Transition Portfolio, S&T manages a Basic Research Portfolio. The Basic 
Research Portfolio is approximately 20 percent of the R&D budget and is 
driven by the need for fundamental technology advancements to address 
gaps that cannot be filled with mature technologies. The S&T's 
Innovation portfolio is between 5 percent and 10 percent of the R&D 
budget and it addresses high-priority needs of the Department with 
high-risk, high pay-off research projects. The Technology Oversight 
Group (TOG) plays a key role in the selection of and funding levels for 
the Transition and Innovation projects. The TOG is headed by the DHS 
Deputy Secretary and ensures that the Department's priorities are 
reflected in S&T's R&D portfolio and its investments.
    Question 2. I noticed that your budget for the Chemical and 
Biological Division outlines a nearly $7 million response and 
restoration program to develop plans to respond and recover to a 
biological attack. We need to see more of this for radiological and 
nuclear events.
    Does S&T undertake any such research for radiation and nuclear 
events, or does that fall entirely to the Domestic Nuclear Detection 
Office?
    Do you foresee interest in radiological preparedness and response 
increasing when the new under secretary comes on board?
    Answer. When the Domestic Nuclear Detection Office was established 
it assumed all responsibility for radiological and nuclear research and 
development R&D in fiscal year 2006 and all related funding in fiscal 
year 2007 and later. In fact, the SAFE Ports Act of 2007 (Pub. L. 109-
347) modified Title 3 of the Homeland Security Act of 2002 removing 
from the under secretary for science and technology authorities or 
responsibilities for radiological or nuclear research and development.
    Question 3a. The Department is the subject of a lawsuit and an 
inspector general investigation over its handling of the site selection 
process for the National Bio and Agrodefense Facility, or NBAF. The 
NBAF is meant to replace the research facility on Plum Island. The 
allegations are serious, contending that the selection process for this 
more than half-a-billion dollar enterprise was biased and based on 
neither good science nor good Government.
    What actions have been taken to sell Plum Island?
    Answer. Pursuant to Section 540 of the Consolidated Security, 
Disaster Assistance and Continuing Appropriations Act of 2009, Pub. L. 
110-329, the Secretary of Homeland Security has directed the General 
Services Administration (GSA) to move forward with actions that will 
allow the liquidation of the Plum Island asset. The GSA is currently 
reviewing the Department of Homeland Security (DHS) documents related 
to Plum Island in order to create the appropriate marketing plan, 
conduct due diligence and meet environmental planning requirements. The 
GSA and DHS representatives meet regularly to lay the ground work for a 
memorandum of agreement that will govern agency actions going forward.
    Question 3b. Do you believe it is prudent to undertake such actions 
when a lawsuit and an IG investigation into serious allegations are 
only just getting underway?
    Answer. The Department cannot comment on pending litigation and has 
no knowledge of any IG investigation into the National Bio and Agro-
Defense Facility NBAF site selection. However, as for the merits of 
DHS's site selection process, the selection of the Manhattan, Kansas 
site concluded a rigorous, 3-year, multi-agency planning process to 
identify the preferred site upon which to construct and operate NBAF. 
The process involved a qualitative analysis of the strengths and 
weaknesses of each site alternative and included information from the 
risk assessment, environmental assessment, and security assessment on 
proposed NBAF operations. A steering committee, comprised of Federal 
employees from DHS and the U.S. Department of Agriculture, was convened 
to lead the evaluation process and unanimously recommended the site in 
Manhattan, Kansas as its preferred site alternative. The DHS leadership 
concurred with the Federal employee steering committee's 
recommendation.
    Question 3c. Will S&T break ground on the NBAF and sell the island 
before these allegations have been resolved?
    Answer. DHS cannot predict when the lawsuit or any IG investigation 
(or any potential IG investigation) will be resolved. However, due to 
the aging infrastructure at the Plum Island Animal Disease Center 
(PIADC) and the need to find an efficacious cure for foot-and-mouth 
disease and other foreign animal diseases, DHS will continue with site 
specific design for this high containment laboratory, which will 
provide the country with biosafety level 3 and 4 facilities for large 
animal research.
    Question 4a. The Directorate funds national laboratories and DHS 
Centers of Excellence to basic and applied research.
    How does S&T prioritize the split between these entities?
    Answer. The Science and Technology (S&T) Directorate's divisions 
work with the Director of Research when developing research topics in 
their areas. This coordination helps the S&T divisions select the 
University or National Lab performer with the most appropriate 
expertise for each research project. The Director of Research, through 
the Office of University Programs, has aligned the DHS Centers of 
Excellence with S&T's divisions to ensure that the centers research 
efforts are meeting the strategic needs of the Department and that the 
centers are building a capability to best match those needs. The 
Director of Research, through the Office of National Laboratories, has 
also aligned the Department of Energy's National Laboratories to each 
S&T division to identify the laboratories with the most relevant 
capabilities and enable the divisions to select the appropriate 
performers for high-priority research and development.
    Question 4b. Is enough basic research being funded to establish a 
long-term research basis for future applied and transitional 
technologies?
    Answer. Yes, S&T has grown its basic research portfolio from 
approximately 10 percent in 2006 to about 20 percent in 2010. Basic 
research needs to be balanced with the Transition and Innovation 
projects to ensure that technologies are being delivered to the field 
to support our customers, and that there is a pipeline of next-
generation technologies to address the future requirements.
    Question 5a. The Directorate has established two new research 
centers, the Homeland Security Systems Engineering and Development 
Institute (HSSEDI). This center will transition work away from non-DHS 
research centers.
    From which centers will work be shifted?
    Answer. Work will transition from the Internal Revenue Service, 
Center for Enterprise Modernization (CEM), Federally Funded Research 
and Development Center (FFRDC), and the Department of Defense, Command, 
Control, Communications and Intelligence (C3I) FFRDC to the Homeland 
Security Systems Engineering and Development Institute. The CEM and C3I 
FFRDCs are operated by the MITRE Corporation.
    Question 4b. Will the work be funded solely from the S&T 
Directorate, or from other DHS components as well?
    Answer. Each task will be funded directly by the requesting 
Department of Homeland Security (DHS) component, which may include the 
Science and Technology (S&T) Directorate.
    Question 4c. Is the funding request for HSSEDI?
    Answer. The Homeland Security Institute (HSI) contract expired in 
April 2009, and a new FFRDC was established to conduct strategic 
studies and analysis for the Department. Funding for the core research 
activities of the new FFRDC, the Homeland Security Studies and Analysis 
Institute (HSSAI), is included in the fiscal year 2010 budget request.
    The other new FFRDC, the Homeland Security Systems Engineering and 
Development Institute (HSSEDI), was established to provide DHS and the 
homeland security enterprise with program-level concept evolution, 
system-of-systems development integration, and homeland security best 
practices in lifecycle systems engineering and program (acquisition) 
management. HSSEDI has a different business model. Its funding will be 
solely task-based, and there is no core research budget requested. Each 
task will be funded directly by the requesting DHS component, which may 
include the Science and Technology Directorate.
    Question 6. Across the Federal Government not just in Homeland 
Security, there is a proliferation of detection technologies being 
developed, tested, purchased, and deployed. From chemical sensors to 
nuclear material sensors, there are numerous stove-piped programs 
aiming to address one specific threat.
    In your view, is there an opportunity to take a more strategic view 
of technology development so instead of buying three sensors--one to 
detect a chemical threat, a second to detect an explosive threat, and a 
third to detect nuclear material--we can look more strategically to 
develop and deploy multi-mission technology to detect more than one 
threat? Are we doing this now? Do you believe such an approach might be 
reasonable and worth investigating?
    Answer. The Science and Technology (S&T) Directorate does pursue 
opportunities to strategically develop and deploy integrated systems 
that will detect more than one threat. For example, the Integrated 
Chemical, Biological, Radiological, Nuclear and Explosive (CBRNe) 
Detection System Project is developing an architecture that integrates 
reporting from disparate CBRNe detection/collection systems. This 
system will provide timely CBRNe detection, identification, and 
assessment of the threat and enables appropriate response by local, 
State, and Federal officials. It will greatly improve the integration 
of alarm and response assets across multiple potential attack modes, 
resulting in more rapid and informed decisions at the appropriate 
response level. The S&T is also in the process of developing sensors 
for bench-top and handheld applications with the joint capability of 
detecting explosives and narcotics. Customers for these technologies 
include DHS U.S. Customs and Border Protection and the U.S. Coast 
Guard.
    However, while leveraging opportunities to develop multi-mission 
technology systems is worthwhile, there are limits. The underlying 
technologies that enable detection of chemical, biological, 
radiological, nuclear, and explosive threats are fundamentally very 
different from each other. In addition, the operational environments 
for these distinct detection technologies vary, making testing of the 
detectors a challenge. For example, programs working across the 
chemical and the explosives threat domains have much different concepts 
of operation and hence testing environments; such as first-responder 
needs versus transportation security requirements. These differences 
can make development of multi-threat detection technology beyond the 
scope of what is possible today. While it is necessary for many 
programs to focus on developing single-threat specific detection 
technologies, the ultimate goal is to integrate them into deployable 
multi-threat detection systems to the greatest extent possible and to 
exploit testing programs for different threat domains, where feasible, 
to make best use of program funds. Collocation and integration of 
single-threat specific detection technologies can, in the near-term, 
achieve more efficient and effective operations.
   Questions From Honorable Paul C. Broun of Georgia for Bradley I. 
 Buswell, Acting Under Secretary, Science and Technology Directorate, 
                    Department of Homeland Security
    Question 1a. As you know, the Department of Homeland Security (DHS) 
has recommended a site in Manhattan, Kansas for its proposed National 
Bio and Agro-Defense Facility, known as NBAF. The Department of 
Homeland Security is now the subject of a lawsuit and an inspector 
general investigation over its handling of the new NBAF's site 
selection process. The NBAF is intended to replace the smaller, out-of-
date Plum Island facility. However, the allegations against the 
Department are serious, contending that the selection process for this 
more than half-a-billion dollar facility was biased and based on 
neither good science nor good Government. We believe the best way to 
safeguard the process for future competitions, and to ensure that the 
needs of the American people for an agricultural and bio-defense 
facility are being served in an optimal manner.
    Will S&T break ground on the NBAF and sell the island before these 
allegations have been resolved?
    Answer. The Department of Homeland Security (DHS) cannot predict 
when the lawsuit or any IG investigation (or any potential IG 
investigation) will be resolved. However, due to the aging 
infrastructure at the Plum Island Animal Disease Center (PIADC) and the 
need to find an efficacious cure for foot-and-mouth disease and other 
foreign animal diseases, DHS will continue with site-specific design 
for this high-containment laboratory, which will provide the country 
with biosafety level 3 and 4 facilities for large animal research.
    Question 1b. What actions have been taken to sell Plum Island?
    Answer. Pursuant to Section 540 of the Consolidated Security, 
Disaster Assistance and Continuing Appropriations Act of 2009, Pub. L. 
110-329, the Secretary of Homeland Security has directed the General 
Services Administration (GSA) to move forward with actions that will 
allow the liquidation of the Plum Island asset. The GSA is currently 
reviewing DHS documents related to Plum Island in order to create the 
appropriate marketing plan, conduct due diligence and meet 
environmental planning requirements. The GSA and DHS representatives 
meet regularly to lay the groundwork for a memorandum of agreement that 
will govern agency actions going forward.
    Question 1c. Do you believe it is prudent to move forward on this 
project so quickly when a lawsuit and an IG investigation into serious 
allegations are only just getting underway?
    Answer. The Department cannot comment on pending litigation and has 
no knowledge of any IG investigation into the National Bio and Agro-
Defense Facility (NBAF) site selection. However, as for the merits of 
DHS's site selection process, the selection of the Manhattan, Kansas 
site concluded a rigorous, 3-year, multi-agency planning process to 
identify the preferred site upon which to construct and NBAF. The 
process involved a qualitative analysis of the strengths and weaknesses 
of each site alternative and included information from the risk 
assessment, environmental assessment, and security assessment on 
proposed NBAF operations. A steering committee, comprised of Federal 
employees from DHS and the U.S. Department of Agriculture, was convened 
to lead the evaluation process and unanimously recommended the site in 
Manhattan, Kansas as its preferred site alternative. The DHS leadership 
concurred with the Federal employee steering committee's 
recommendation.
Questions From Chairwoman Yvette D. Clarke of New York for Jon Krohmer, 
Acting Assistant Secretary and Chief Medical Officer, Office of Health 
                Affairs, Department of Homeland Security
    Question 1. Do you believe that the Office of Health Affairs should 
continue to exist as a stand-alone office within the Department? Or do 
you believe that it should be split up with pieces sent to various 
other organizational entities within DHS? In your opinion, how would 
efficiency and effectiveness increase in either scenario?
    Answer. Currently, the Office of Health Affairs is a stand-alone 
entity within the Department of Homeland Security (DHS). This 
organizational structure promotes the health component of homeland 
security in protecting the Nation from the effects of natural 
catastrophic events and acts of terrorism and ensuring consistent 
standards are in place across DHS to protect its critical work force. 
However, DHS is always looking at ways to improve the management and 
performance of all its components. For example, as part of the DHS' 
Quadrennial Homeland Security Review (QHSR) process, the Department is 
reviewing Departmental organization, including OHA.
    Question 2. The recent outbreaks of H1N1 provided the Office of 
Health Affairs with the opportunity to demonstrate its utility to the 
DHS and the rest of the Executive Branch. Please talk to us about how 
OHA performed, and what would have helped the Office to carry out its 
responsibilities better. For example, how did the National 
Biosurveillance Integration Center and System contribute to the overall 
effort, and would more funding have helped to provide a more 
comprehensive picture of developments with the outbreaks and spread of 
the disease?
    Answer. The Office of Health Affairs was very involved in the 
Department's response to the recent H1N1 flu outbreak. We also worked 
extremely closely with our interagency partners during this event. OHA 
actions in response to the H1N1 influenza outbreak include the 
following, among other activities:
  <bullet> Collaborating with DHS Components to inventory their 
        respective countermeasure stockpiles, and determining current 
        needs, especially for border personnel;
  <bullet> Deploying additional protective countermeasures--antivirals 
        and personal protective equipment (PPE)--to border areas for 
        DHS personnel;
  <bullet> Answering questions from the components and the interagency 
        regarding workforce protection issues;
  <bullet> Setting up and managing the OHA Decision Support Cell, which 
        served in support of the DHS National Operations Center as the 
        central collection, analysis, and processing element for 
        medical and health information and guidance for the Department;
  <bullet> Answering requests for information from the Secretary, the 
        Deputy Secretary, DHS Components, State and local community 
        officials, and other DHS stakeholders;
  <bullet> Collaborating with CDC on development and distribution of 
        Travelers Health Alert Network (THAN) to State and local Health 
        Officers, Public Information Officers, Epidemiologists and HAN 
        Coordinators as well as clinician organizations;
  <bullet> Supporting the Federal lead agencies with specific cross-
        domain analysis related to H1N1 through the National 
        Biosurveillence Integration Center (NBIC);
  <bullet> Generating comprehensive daily status reports based on 
        integrating Federal, State, open source, and classified 
        information sources on the status of the H1N1 influenza 
        outbreak spread;
  <bullet> Maintaining the real-time dynamic biosurveillance operating 
        picture of the current status of the H1N1 influenza outbreak 
        event 24/7 for the Federal interagency participants (via the 
        NBIC);
  <bullet> Connecting with the Nation's modeling capability, including 
        the National Infrastructure Simulation Analysis Center (NISAC) 
        to evaluate more fully the potential work force and critical 
        sector infrastructure impacts that could result for different 
        H1N1 influenza outbreak scenarios to better inform future 
        planning and policy decisions; and,
  <bullet> Providing surge support through the BioWatch program at 27 
        Public Health laboratories, as well as providing surge support 
        for sample analysis (this is not impacting on-going BioWatch 
        operations).
    Question 3. Various outbreaks have tested the ability of the 
National Biosurveillance Integration Center (NBIC) to obtain and 
integrate biosurveillance data from the Federal Departments and 
agencies. To date, NBIC has struggled to operate at even a low level, 
and is not providing value-added to any of the individual members of 
the Executive Branch or the collective. The committee believes that 
either NBIC needs to receive a much larger infusion of funding--on the 
order of five times as much as currently requested--or that the NBIC 
should be discontinued because it is not performing the way Congress 
intended. What is your opinion of the NBIC, and do you think it is 
possible for the Center to operate and provide integrated surveillance 
information on only $8 million/year?
    Answer. NBIC is a critical component of the Nation's ability to 
integrate biosurveillance data. The Implementing Recommendations of the 
9/11 Commission Act of 2007 (Pub. L. 110-53) established the National 
Biosurveillance Integration Center (NBIC) to provide a biosurveillance 
common operating picture to senior leaders and partner agencies 
regarding natural disease outbreaks, accidental, or intentional uses of 
biological agents, and emergent biohazards through the acquisition, 
integration, analysis and dissemination of information from existing 
human health, animal, plant, food, and water surveillance systems and 
relevant threat and intelligence information. NBIC has provided 
valuable situational information to senior leaders (both within DHS and 
the interagency) on ongoing biological incidents.
    Current funding levels support current operations and NBIC will 
continue to analyze information and data and will provide integrated 
surveillance information to senior leaders during biological incidents.
    Question 4. The National Biodefense Architecture Project has 
received very little funding in this and previous Presidential budget 
requests. As with NBIC, the committee does not believe it is possible 
for this project to accomplish what it aims to with only hundreds of 
thousands of dollars budgeted for its activities. (In fact, this seems 
mostly to be funding the development of concept papers by contractors.) 
The committee believes that millions of dollars are necessary to fully 
characterize the architecture, perhaps with the inclusion of funding 
for a Commission to undertake this activity (as opposed to a Government 
contractor) and to provide relevant information and recommendations to 
both the legislative and executive branches. Dr. Kramer, given what you 
know about the biological threat and the need for vastly enhanced a 
domestic biodefense architecture, do you think that it is possible for 
such an activity be undertaken for only a few hundred thousand dollars 
per year?
    Answer. The National Biodefense Architecture (NBA) program is 
currently focused on developing a concept for a national biodefense 
capabilities assessment, a task charged to the Department by Homeland 
Security Presidential Directive 10, Biodefense for the 21st Century. In 
fiscal year 2010, OHA plans to begin performance of this capabilities 
assessment. This assessment will lay the foundation for a future 
biodefense architecture. It is our plan to catalog capabilities, seek 
gaps in surveillance, preparedness, and response and develop a 
structure to fill these gaps by linking together the existing 
capabilities or developing new ones based on best practices into a 
national framework or architecture. OHA will also continue to work 
closely with existing interagency relationships and reach out to 
additional agencies in order to preserve its interests in a national 
plan to set out this architecture. We agree that this effort cannot be 
limited to one Department or agency and must be a coordinated 
interagency effort.
    Question 5. The Integrated Consortium of Laboratory Networks seeks 
to integrate Federally sponsored and funded laboratory networks that 
have arisen for a variety of purposes (for example, the Laboratory 
Response Network for Bioterrorism is a member network, Federally 
sponsored by the Centers for Disease Control and Prevention). This 
activity originated in the DHS S&T Directorate, but has matured to the 
point that DHS S&T feels that its operational aspects should be 
transferred to OHA, where other personnel and programs interact with 
the various communities (such as the public health laboratory 
community) that compose these various networks. Dr. Kramer, do you 
support this transfer? Why or why not? Where within the current 
organizational structure for OHA would you put this activity, and how 
much funding do you think should be allocated in order for it to 
function effectively?
    Answer. The transfer of the management of the Integrated Consortium 
of Laboratory Networks (ICLN) from the Science and Technology (S&T) 
Directorate to the Office of Health Affairs (OHA) is appropriate upon 
achieving operational status of an integrated system capable of 
providing optimal response to an event requiring an integrated 
laboratory response. In 2008, the under secretary of S&T transferred 
his duties as chair of the ICLN Joint Leadership Council to the 
assistant secretary for health affairs/chief medical officer. 
Presently, the S&T Directorate manages the ICLN and is making advances 
toward its operational status.
    The recent emergence of the H1N1 influenza strain has highlighted 
the critical need for a system of laboratory networks capable of an 
integrated and coordinated response and consequence management during 
times of surge. The Office of Weapons of Mass Destruction--Biodefense 
within OHA has an agreement in place with the S&T Directorate's 
Chemical and Biological Division to transition the ICLN when S&T, in 
conjunction with ICLN partners, completes the establishment of 
coordination and governance mechanisms and establishes an integrated, 
functional response architecture. The current ICLN roadmap indicates 
completion of that integrated response architecture by June 2010. 
However, in addition to the criterion for a complete and functional 
integrated response architecture, the time of transition of the ICLN 
also hinges on two additional requirements. First, OHA is required to 
secure funding in order to manage the ICLN. Second, OHA must provide 
personnel to assume full-time duties of managing this effort.
    S&T will continue its management of the ICLN until OHA has adequate 
resources to ensure the success of the ICLN. While I firmly believe OHA 
is well-positioned with its mission and existing relationships with the 
public health community to more appropriately manage ICLN operations, 
my intent is not to prematurely transition an effort from S&T that 
would not have the requisite support in OHA, but rather provide for a 
seamless transition that maintains the trust and confidence of the ICLN 
partners through the transition.
    Question 6. OHA has indicated that it is developing medical 
intelligence capacity for use and inclusion in the State fusion 
centers. Although the committee supports the notion that public health, 
medical, veterinary, environmental, and other types of information 
should be fused with law enforcement and intelligence information 
already residing in fusion centers, we are concerned about the 
duplication and possible contradictory efforts occurring with medical 
intelligence activities at OHA, health intelligence activities 
occurring in I&A, and medical intelligence activities occurring (with 
DHS participation) at the DOD-sponsored National Center for Medical 
Intelligence. Dr. Kramer, what is your vision for DHS-driven medical 
intelligence activities, and how do you propose to eliminate 
inefficiency and ineffectiveness in this regard for the Department?
    Answer. OHA does not conduct medical intelligence activities; we 
provide expertise to I&A and input as needed. OHA is a customer of--and 
supports as needed--I&A's efforts on medical intelligence. OHA has been 
involved as a gateway to the public health and medical communities for 
the Health Security Intelligence Enterprise (HSIE)--a partnership which 
includes OHA and I&A. Both partners bring critical elements to the 
HSIE. OHA gathers public health/medical responder requirements and 
serves as an interface to that community, while I&A produces 
assessments for this community (in collaboration with other relevant 
agencies) and sponsors the program throughout the national State and 
local fusion center. OHA provides support through funding, personnel, 
subject matter expertise, and a network of health and medical 
professionals in the public health and health care community. It is 
important to note that OHA will not be placing representatives in State 
and local fusion centers. The HSIE initiative is designed to facilitate 
the placement of State and/or local public health/health care 
representatives in those centers.
    I&A has worked with the 70 designated State and local fusion 
centers to create an information-sharing environment that serves 
stakeholders' information needs and builds interoperability. By 
partnering with I&A, OHA has been able to leverage those relationships 
to formulate policies, guidance, and strategies to provide outreach, 
advisory services, training, and a variety of coordination and 
education activities. These activities maximize the efforts of OHA to 
enhance existing relationships with the health community and promote 
the appropriate exchange of health security information and 
intelligence between all homeland security partners. As an indication 
of the strength and efficacy of the partnership between OHA and I&A, 
OHA has detailed an individual to I&A's State and Local Program Office 
to develop this program.
    OHA is partnering with I&A to develop mechanisms to share 
appropriate WMD and health-related threat information with fusion 
centers and partners in the health community. Building information 
sharing links and a network is only part of the solution--we must have 
timely, tailored, and relevant intelligence information to share with 
our partners. To that end, I&A established a medical intelligence 
analysis team within the National Center for Medical Intelligence 
(NCMI) that focuses on threats to the homeland, and provides all-source 
analysis on human, animal, plant, and food security threat issues for 
customers at all levels--from the Secretary of Homeland Security to 
public health officers in the field. I&A is fully integrated within the 
NCMI and leverages existing capabilities to ensure there is no 
duplication of effort and that all customer requirements are met. I&A's 
integration into NCMI is such that the NCMI created a position of 
Deputy Director for Homeland Security, staffed by a senior I&A 
intelligence officer. I&A and NCMI provide individual and co-authored 
all-source intelligence analysis for medical intelligence threats to 
the homeland, and are able to disseminate them as appropriate to DHS-
recognized fusion centers. In addition, I&A supported the 2009 H1N1 Flu 
Incident Management Cell located at OHA's main office, affording prompt 
access to intelligence products generated specifically for H1N1 by 
NCMI.
    Question 7. As you are well aware, there are many emergency medical 
personnel--most especially EMTs--that work in various capacities 
throughout the Department of Homeland Security for the various 
component agencies. In carrying out their responsibilities, they are 
often required to traverse State, territorial, and sometimes 
international boundaries. The current approach utilized by the 
Department is to require all such personnel to obtain and maintain 
accreditation in the States in which they are permanently assigned. 
However, this does not take into account their cross-border operational 
requirements. Further, it does not take into account the requirements 
of those undercover law enforcement personnel to maintain their EMT 
status while remaining under cover. A simple solution would be for DHS 
to establish an accreditation program similar to those used by other 
Federal departments and agencies (such as the FBI and the DOD). The 
committee supports the implementation and use of such a model. Dr. 
Kramer, do you agree? If not, please explain to the committee how the 
currently used or alternative models best serve the needs of the 
Department and its employees?
    Answer. The Department is currently developing a plan for 
establishing an EMS medical oversight and credentialing system within 
the Department. This system would provide that EMS providers who are 
employed by, contracted by, or detailed to DHS who possess a current, 
valid State license or certification to provide EMS, and who perform 
authorized duties for the Department, may provide EMS in any State, the 
District of Columbia, or a Commonwealth, territory, or possession of 
the United States. DHS is currently determining whether the Department 
can move forward with such a system under its current statutory 
authorities.
 Questions From Ranking Member Daniel E. Lungren of California for Jon 
 Krohmer, Acting Assistant Secretary and Chief Medical Officer, Office 
           of Health Affairs, Department of Homeland Security
    Question 1. The budget request for Planning and Coordination, which 
is predominantly accounted for by the Office of Medical Readiness, has 
been cut significantly, by $3.3 million. This office is responsible for 
the critical task of planning the medical aspects of incident 
management for both the Department and the interagency, including for 
pandemic influenza preparedness. The importance of its work has become 
readily apparent during the current influenza outbreak. Yet I 
understand that the office has received no specific funding request 
this year for pandemic activities.
    Why was the budget cut for this office?
    Why is there no funding request specific for pandemic activities?
    Answer. The Planning and Coordination PPA account funds the 
activities of the Office of Medical Readiness and the Food, 
Agriculture, and Veterinary Defense Division within the Office of 
Health Affairs. The budget request reflects a balancing of priorities 
within the Department. As the requested funding level, the Office of 
Medical Readiness will continue to review Federal plans for the medical 
and public health impacts, including pandemic influenza, and will 
continue to provide subject matter expertise during incidents and 
exercises.
    DHS pandemic activities will continue in fiscal year 2010 through 
funding from the Pandemic Supplemental of fiscal year 2006 ($47.283 
million). That supplemental is 99% obligated at this time, and will be 
fully obligated in fiscal year 2010. The Department is currently 
conducting an after-action review of the recent H1N1 flu outbreak 
response. If the Department identifies additional needs or resources in 
fiscal year 2010, the Department will prepare a request for 
Congressional and Department of Health and Human Services consideration 
to be funded out of the recent pandemic supplemental appropriation. OHA 
will continue to provide subject matter expertise for DHS pandemic 
activities through fiscal year 2010.
    Question 2. OHA's mission statement states that OHA ``leads the 
Department's role in developing and supporting a scientifically 
rigorous, intelligence-based biodefense and health preparedness 
architecture to ensure the security of our Nation in the face of all 
hazards.'' Yet, the National Biodefense Architecture received no 
funding request. This initiative was a necessary attempt to do what no 
other agency or program is doing to collate and coordinate the myriad 
biodefense activities across all levels of Government.
    Why have you cut a program that is, by title and definition, key to 
OHA's mission?
    Why does the Department view oversight and coordination of 
biodefense activities as an unnecessary initiative?
    How can a reduction in contractor support, which was given as a 
reason to staff for the reduction in the budget request, explain 
zeroing out of the program entirely?
    What are your plans for the future of this program; will it 
disappear after its fiscal year 2009 funding is consumed?
    Answer. The National Biodefense Architecture (NBA) continues to be 
an important program for the Office of Health Affairs. The bulk of the 
work supporting the NBA will be done with 2009 funds. In fiscal year 
2010, the NBA program will continue some of the activities started in 
fiscal year 2009 including development of a baseline assessment of the 
Nation's biodefense capabilities. OHA will continue to work closely 
with existing partners and will reach out to other agencies as well to 
ensure that DHS plays the appropriate role within the interagency and 
preserves its interests in a national plan to monitor, detect, respond 
to, and recover from biological catastrophes.
    Question 3. The Food, Agriculture, and Veterinary Defense (FAVD) 
office request was level, at $727,000. This office has the critical 
mission of leading the Department's efforts to ensure the security of 
the Nation's food supply. OHA has informed staff that the current 
funding and staff levels enable FAVD to meet its most pressing needs.
    Is it enough to support only the most pressing needs? Shouldn't we 
support this office so it can meet the day-to-day needs as well as the 
crisis of the moment?
    What needs is the office not meeting at current staffing and 
funding levels?
    Answer. The fiscal year 2010 President's budget requested $727,000 
to fund the Food, Agriculture, and Veterinary Defense (FAVD) Division 
within the Office of Health Affairs (OHA). This funding level will 
support current operations and FAVD will continue to work, in 
coordination with the United States Department of Agriculture and other 
internal and external partners, to ensure the security of the Nation's 
food and agriculture sectors.
    Question 4. BioWatch Gen-3.0 is getting ready for operational 
testing and evaluation by the Office of Health Affairs.
    I have heard with some concern that when it is ready, the Gen-2.0 
machines will be taken out of commission. Is this the case, and if so, 
wouldn't it make more sense to maintain the budget for both, thereby 
gaining a significant net increase in capability?
    Even though the Gen-3.0 machines will offer faster detection times, 
is it true that they may not in fact be able to identify any more 
agents than Gen-2.0? Would it make sense to fund the S&T Directorate 
for development of better, broader assays to make this happen?
    Answer. DHS' current plan for the BioWatch Program is to replace 
manually operated collectors (Gen-1 and Gen-2 systems) with automated 
detectors. These automated detectors will analyze air samples 
internally and will report out results. Automated analysis of air 
samples is estimated to reduce detection time from 10-34 hours to 4-6 
hours. When fully deployed, an automated BioWatch detection network 
will have replaced all previous generation sensors.
    It is DHS' expectation that the value gained by having an 
autonomous system will provide the Nation with the most effective 
approach toward biodetection.
    The initial testing and use of the Gen-3 systems will be for the 
same agents as detected by Gen-1 and Gen-2 systems. The end goal for 
the Gen-3 systems is to have the capability to detect as many as 20 
agents if appropriate. The Science and Technology (S&T) Directorate at 
DHS will continue to lead the development of additional assays for 
inclusion in the BioWatch detection system that allow for a broader 
range of detectable agents for Gen-3 systems.
 Questions From Chairwoman Yvette D. Clarke of New York for Charles R. 
      Gallaway, Acting Director, Domestic Nuclear Detection Office
    Question 1. What is your current estimated date for ASP Secretarial 
Certification? Is the current intention to certify for primary 
inspection, secondary inspection, or both?
    Answer. Testing for Advanced Spectroscopic Portal (ASP) systems is 
currently on-going, but we anticipate that we will be prepared to 
provide test data and analysis, along with consultation with the 
National Academy of Sciences, to inform the Secretary's decision on 
certification of ASP performance this fall. Based on the fulfillment of 
criteria defining a ``significant increase in operational 
effectiveness'' set forth for primary and secondary inspections, the 
Secretary will be able to determine whether to certify ASP systems for 
primary and/or secondary deployments.
    Question 2. The fiscal year 2010 budget request for Systems 
Acquisition--that is for procurement of detection technologies--has 
been zeroed out, a cut of $153.5 million. Your Congressional 
Justification states that: ``No funds are being requested for the 
Domestic Nuclear Detection Office Systems Acquisition reflecting 
unobligated carryover balances from prior appropriations and 
unanticipated delays in final Secretarial certification of Advanced 
Spectroscopic Portals. DNDO will continue to acquire radiological/
nuclear detection equipment in fiscal year 2010 as it draws down 
unobligated balances remaining for this activity. To date, DNDO's 
acquisition program has successfully enabled DHS components to 
dramatically increase scanning of cargo and persons at U.S. points of 
entry.'' How much do you have in ``unobligated carryover balances''? 
Are these carryover funds sufficient for all fiscal year 2010 
procurements?
    Answer. The fiscal year 2009 unobligated balance for current 
generation radiation portal monitors (RPMs), which will soon be 
obligated for current year requirements, is $39 million. The 
unobligated balance for ASP systems is $77 million, of which $17 
million remains from fiscal year 2008 and $60 million remains from 
fiscal year 2009. Assuming a successful outcome of Secretarial 
certification, these funds will be used to procure a mix of current 
generation and ASP systems. If certification does not occur, these 
funds will be used to procure only current generation systems. Based on 
prior year purchases, 158 additional PVT radiation portal monitors 
could be delivered and deployed in fiscal year 2010 using the funding 
currently planned for ASP systems.
    Question 3. Is there a ``drop-dead'' date for Secretarial 
Certification for ASP? That is to say, the date for certification has 
been pushed back several times. Is there a point at which you must cut 
your losses and re-evaluate the program?
    Answer. The fundamental technology that ASP brings to the Nation's 
homeland security arsenal is sound, and as a system it promises to 
deliver a significant improvement over previous capabilities in the 
detection and identification of radiological/nuclear threats. To date, 
the delays in certification of ASP have been related to issues of 
operational ease and reliability--problems that take time to resolve 
but do not seriously threaten the viability or potential contribution 
of the new system. Given the nature of the rad/nuc threat, our 
continuing belief in the soundness of the underlying technology, and 
the progress we have made in addressing operational issues to date, we 
are confident that ASP remains the ideal solution to the requirement 
for a detection and identification system at ports of entry for the 
near future.
    Question 4. Let us suppose that the ``Significant Increase In 
Operational Effectiveness'' criteria are met for the ASP, and that the 
Secretary certifies the ASP. The next consideration is that an ASP 
costs 2.67 times as much as a current PVT. Does the increase in 
performance then justify the increased cost?
    Answer. DNDO has prepared, and is in the last stages of reviewing, 
a comprehensive Cost Benefit Analysis and Life Cycle Cost Estimate to 
determine the cost effectiveness of ASP detectors. This analysis, along 
with input from the stakeholders, and concurrence from the DHS 
Acquisition Review Board, will form the basis of any acquisition or 
deployment decisions.
    Question 5. The committee is very concerned with Source Security 
and DNDO's role in the trilateral effort to secure radioactive sources. 
It is our understanding that OMB requested that source security funding 
go through one agency (DOE/NNSA), rather than multiple sources. Please 
describe the current status of the trilateral effort, DNDO's role, the 
role of the other two agencies (DOE/NNSA and NRC), and the funding 
levels for these efforts at DNDO and at your other two agency partners.
    Answer. DNDO's source security work involves performing gap 
analysis and promoting mitigation strategies to secure radiological 
material at its source within the United States. In fiscal year 2009, 
the DNDO budget included $1 million in funding for irradiator 
hardening, however in fiscal year 2010 source security work such as 
irradiator hardening will be conducted exclusively by DOE. A forum for 
discussion on source security between DOE, DHS, and the Nuclear 
Regulatory Commission (NRC) is still in place, and DHS, through the 
Nuclear Government Coordinating Council and Nuclear Critical 
Infrastructure Partnership Advisory Council (CIPAC), will continue to 
play an advisory role.
    The NRC is the regulatory body of the United States Government for 
licensing of all radioactive medical and industrial sources in the 
United States, including the security of the radioactive materials. In 
addition to regulatory controls on radioactive materials, NRC has 
implemented many additional security requirements on the licensees of 
radioactive source, and has raised the security culture among the 
licensees in the United States in partnership with the Agreement 
States.
    DOE has established a domestic source security program that, in 
cooperation with the U.S. licensees and the NRC, is targeted at 
implementing security measures above what is required by the NRC. DOE 
is providing funding to licensees to implement increased security 
measures at licensee facilities in the United States. It is our 
understanding that the DOE funds approximately $400 million for their 
domestic security program; the NRC does not break out their source 
security expenditures in this manner.
    Question 6. The budget requests a plus-up of $7.2 million for 
Transformational Research. Can you give us some examples of research 
that you are pursuing?
    Answer. DNDO's transformational research and development program 
identifies, explores, and develops scientific and technological 
approaches that will dramatically improve the performance of nuclear 
detection components and systems. There are three efforts underway that 
support long-term research--Exploratory Research, Advanced Technology 
Demonstrations (ATDs), and a dedicated Academic Research Initiative 
(ARI).
    The Exploratory Research program has made major advances in the 
area of new materials for passive radiation detection. Since all 
detectors rely on some material to detect the radiation emitted by a 
threat, discoveries of new, more effective detection materials have a 
high payoff because they can be incorporated into many different types 
of detectors for many different applications or threat scenarios. For 
gamma-ray detection, the new materials will result in detectors that 
are more efficient, cheaper, or have improved ability to reduce false 
alarms. For neutron detection, DNDO is accelerating the final 
development and initial production of new materials to replace the 
scarce, but presently-used, helium-3 by the end of fiscal year 2009 or 
early fiscal year 2010. To put this in perspective, to advance from the 
discovery of a new detector material to construction of prototype 
instruments in the space of 2-3 years is really remarkable. It is our 
intent to continue and accelerate these material research successes in 
fiscal year 2010, while still focusing on potential techniques for 
closing gaps in the architecture and substantially improving the 
performance or reducing the cost of RN detection capabilities.
    DNDO is also partnering with the National Science Foundation (NSF) 
on the ARI to emphasize radiation detection sciences in academia, a 
field that has been in decline at American universities for years. The 
joint DNDO/NSF effort, in coordination with the efforts of other 
agencies, is advancing fundamental knowledge in new technologies for 
the detection of nuclear threats, and in the development of the next 
generation of scientists and engineers in technical fields relevant to 
long-term advances in nuclear detection capability.
    DNDO's ATDs are also showing great promise for users in the law 
enforcement, first responder, counterterrorism, and intelligence 
communities. The IPRL ATD is developing pocket-sized systems to 
autonomously determine the location of radiation while maintaining 
sufficient energy resolution and sensitivity to reliably discriminate 
between NORM, background radiation, and special nuclear materials. 
Likewise, the Stand-off Radiation Detection Systems (SORDS) ATD is 
developing mobile passive gamma detection system that can locate small 
sources at distances up to 100 meters using developing technologies 
like gamma-ray imaging, advanced alarming algorithms, and sensor and 
data fusion techniques that may dramatically improve sensitivity and 
directional accuracy. Finally, the Shielded Special Nuclear Alarm 
Resolution (SNAR) ATD is developing systems to verify the presence (or 
absence) of shielded SNM. These systems are being developed as either 
an addition to existing radiography systems or a relocatable system 
which potentially could greatly improve the clearing of alarms.
    Question 7. DNDO has, in the past, expressed to this committee the 
need to push radiological and nuclear detection to other modes of 
transportation, such as rail, commercial aviation, general aviation, 
and small maritime craft. What are these plans, and if you are pursuing 
them, where are they in the budget?
    Answer. Rather than considering development-specific efforts in 
isolation, DNDO considers all activities that inform the solution 
development process for a given pathway or mission area, including 
pilots, training and exercises, follow-on architecture studies, and 
cross-cutting technologies.
    Within the maritime mission area, DNDO is conducting a number of 
testing activities, pilot programs, and architecture studies to assess 
alternatives for radiological and nuclear (rad/nuc) detection in the 
maritime domain, and to inform future maritime systems development 
activities. The West Coast Maritime Pilot (WCMP) program supports the 
DHS Small Vessel Security Strategy objective to develop a robust 
layered defense by expanding and enhancing maritime rad/nuc detection 
capabilities for international, Federal, State, local, Tribal, and 
private stakeholders. Consequently, the focus of this effort is to 
evaluate the effectiveness of a limited, phased deployment of 
commercially available and Government-Off-the-Shelf (GOTS) rad/nuc 
detection capabilities against the small vessel threat in the Puget 
Sound and San Diego port regions and gather lessons learned to improve 
effectiveness of a wider deployment of maritime capabilities to other 
priority U.S. ports. In addition, results of the fiscal year 2008 
maritime test campaign (Crawdad) and the fiscal year 2009 boat-mounted 
system test campaign (Dolphin) will help define future development and/
or deployment of boat-mounted radiation detection systems.
    DNDO is also focusing on On-Dock Rail, which accounts for 
approximately 2% of all import containers to the United States. This 
program addresses the challenge of scanning cargo at seaport terminals 
where containers are transferred from ships to a rail facility that is 
within the terminal. These shipments therefore leave on rail cars that 
bypass the detectors at the terminal exit gate which scan trucks 
departing with the other 98% of the containers. Operational testing 
conducted at the Rail Test Center at the Port of Tacoma has 
demonstrated that either mobile or fixed radiation portal monitors are 
adequate to scan containers where chassis are used to move containers 
to the rail facility. However, when straddle carriers are used in this 
role, no currently available technology is sufficiently effective at 
scanning containers at domestic operations. Efforts are underway to 
develop the use of a large radiation detector portal to scan the 
container as a straddle carrier moves it from dockside to a lay-down 
area prior to being loaded onto a rail.
    Within the aviation mission area, DNDO worked closely with Customs 
and Border Protection (CBP) last year at Andrews Air Force Base to 
obtain an accurate baseline assessment of the Radio-Isotope 
Identification Devices currently being used by CBP to scan 
international general aviation (IGA) aircraft. Additionally, other 
handheld Commercial-Off-The-Shelf (COTS) equipment, variations to the 
current CONOPs, and infrastructure requirements were evaluated during 
this campaign. As a result of these testing activities, DNDO and CBP 
conducted a joint assessment indicating that current equipment is 
sufficient to execute the rad/nuc mission for arriving IGA aircraft, 
with appropriate Standard Operating Procedure adjustments. Thus, DNDO 
will not undertake an aviation-specific development program at this 
time. The joint assessment, however, recommended inclusion of next-
generation detection and identification systems within the IGA 
environment, as they become available through DNDO's R&D programs.
    DNDO and CBP have also initiated a pilot program for screening 
international commercial passengers and their baggage at airports of 
entry (APOEs). This Passenger and Baggage (Pax/Bag) Pilot Program will 
evaluate the technical and operational integration of rad/nuc detection 
capabilities in this environment. DNDO will also undertake a number of 
architecture studies using fiscal year 2009 and fiscal year 2010 funds 
to further evaluate the aviation domain. With the exception of these 
architecture studies and cross-cutting programs (e.g., human portable 
systems) referenced above, all fiscal year 2009 activities in the 
aviation mission area are funded using fiscal year 2007 supplemental 
funds.
    Finally, within the land border mission area, DNDO has established 
the International Rail (IRAIL) Program to develop a family of systems 
to scan rail cargo (either passively, actively, or both) for rad/nuc 
screening. The IRAIL program will use a phased approach with a mix of 
risk reduction activities, technology development projects, and pilot 
demonstration projects as appropriate, and will develop and test rad/
nuc threat system solutions to achieve minimal impact on the flow and 
speed of commerce via Concept Studies/Experiments/Technology 
Demonstrations. Interim existing technology solutions that contribute 
to the rapid reduction of the threat space will be considered for 
prototype and/or pilot activities to evaluate performance in a cargo 
environment representative of international rail commerce. To support 
project test and evaluation (T&E) with rad/nuc materials, a Rail Test 
Bed Infrastructure Study will be conducted to determine how, when, and 
where to conduct system T&E. Ultimately, the suite of technical 
solutions or family of systems for each international rail scanning/
screening site will be tailored to meet the requirements of the rail 
POE and accommodate physical, geological, or infrastructure 
limitations.
    Question 8. The committee has been concerned in the past with 
DNDO's (as well as other DHS component's) reliance on large 
corporations for technology development. What are you doing to ensure 
that small businesses with specific technologies that could further the 
DNDO mission are able to work with you?
    Answer. DHS has an Office of Small and Disadvantaged Business 
Utilization, which works to ensure that small businesses have a fair 
opportunity to compete and be selected for contracts. DHS provides a 
Forecast of Contracting Opportunities to assist small businesses in 
finding contracts with DHS, which includes opportunities at DNDO. 
Further DHS efforts include compliance with U.S. Government goals for 
procurement and subcontracting contracts with regards to dollar amounts 
for small businesses.
    DNDO also has a dedicated Small Business Innovative Research (SBIR) 
program. This program funds research and development projects from 
small firms within private industry on selected topics that directly or 
indirectly further the DNDO mission. The goal is to utilize small 
businesses to meet R&D needs and increase private sector 
commercialization.
    In addition to the dedicated SBIR program, new awards for 
Exploratory Research and ATDs are done through open solicitations, to 
which small businesses are eligible to apply. Currently, several small 
businesses have Exploratory Research projects underway.
    Question 9. Many Members are concerned that the DNDO budget request 
zeroes-out the Securing the Cities Initiative. Please explain why this 
decision was made.
    Answer. Beginning in fiscal year 2010, no additional funds are 
being requested for the STC initiative. The 3-year pilot is scheduled 
to end in fiscal year 2009. To date, the initiative has been 
appropriated over $50 million to support New York City regional STC 
stakeholders. For fiscal year 2010, DNDO will extract lessons learned 
from the pilot in the New York City region.
    Question 10. Many Members are concerned that the DNDO budget 
request zeroes-out the Radiation Portal Monitors program. Please 
explain why this decision was made.
    Answer. Due to unanticipated delays in Secretarial certification of 
ASP systems, DNDO has a carryover balance from past year 
appropriations. DNDO will continue to carryout its radiation portal 
monitor deployment plan by using the remaining funds appropriated for 
current generation (PVT) RPMs. Following a successful outcome of 
Secretarial certification, prior year funds could be used to procure a 
mix of current generation and ASP systems. If certification does not 
occur, these funds will be used to procure only current generation 
systems.
   Questions From Ranking Member Daniel E. Lungren of California for 
Charles R. Gallaway, Acting Director, Domestic Nuclear Detection Office
    Question 1. Are we setting the bar too high for testing and 
certification of the Advanced Spectroscopic Portal (ASP) monitors, the 
next generation of radiation monitoring technology?
    Answer. The plans and procedures in place for the Advanced 
Spectroscopic Portal (ASP) program provide a sound foundation for 
future certification and acquisition decisions. ASP systems have been 
under review and evaluation for over 3 years and, while further 
improvements will always be possible, I believe that after the planned 
testing and analysis is complete and the requirements of MD 102-01 have 
been fulfilled, DHS will be in a position to make an informed 
certification decision.
    Question 2. If the Secretary fails to certify ASP in September or 
whenever certification is determined, you testified that you would 
procure current generation systems or PVT units.
    Is there another emerging technology that could fill this void and 
identify the radiation materials detected and minimize false alarms? Is 
radiography scanning a possible replacement for ASP?
    Answer. The fundamental technology that ASP brings to the Nation's 
homeland security arsenal is sound, and as a system it promises to 
deliver a significant improvement over previous capabilities in the 
detection and identification of radiological/nuclear threats. To date, 
the delays in certification of ASP have been related to issues of 
operational ease and reliability--problems that take time to resolve 
but do not seriously threaten the viability or potential contribution 
of the basic system. Given the dire nature of the threat, our 
continuing belief in the soundness of the underlying technology, and 
the progress we have made in addressing operational issues to date, ASP 
remains the most immediate solution to the requirement for a detection 
and identification system at ports of entry.
    Passive radiation detection (radiation portal monitors (RPMs), 
including ASP) and active detection technology (radiography) are 
considered complementary, rather than competing, technologies. Passive 
radiation detection provides the capability to screen 100% of cargo 
against unshielded and lightly shielded threats, but capability 
diminishes with greater levels of shielding. Conversely, radiography 
systems can detect large heavy objects such as shielding sufficient to 
defeat passive systems, but would struggle against small unshielded or 
lightly shielded threats and slow down commerce. While DNDO is pursuing 
development of advanced radiography systems, there are operational 
considerations associated with radiography that reflect its role as a 
complementary detection technology in a layered system, rather than a 
replacement for passive inspection systems. For example:
  <bullet> Scanning time.--Radiography systems may require the driver 
        to exit the truck during the radiograph and could take about a 
        minute per scan. Doing this for targeted screening or secondary 
        inspections would not impact the flow of commerce, but if all 
        cargo was required to be scanned by radiography, the impact on 
        the flow of commerce would be severe. Radiation portal 
        monitors, like ASP, in contrast, are drive-through systems that 
        take only a few seconds per scan.
  <bullet> Cost.--It is anticipated that radiography systems could cost 
        significantly more than current systems.
  <bullet> Operational staffing.--Radiography systems can also be used 
        to detect other types of contraband as well as special nuclear 
        material (SNM) detection. Current CBP policy requires that any 
        images of incoming cargo must be reviewed by a CBP image 
        analyst to screen for dangerous or illegal goods or people. 
        This manual analysis process requires staffing by an image 
        analyst and can take several minutes, determining the actual 
        scanning time.
  <bullet> Operational footprint.--Radiography systems have larger 
        footprints than portal monitors. Some ports of entry may not 
        have adequate space to accommodate these larger systems.
  <bullet> Technical readiness.--In a layered approach to counter 
        threats, systems should be fielded as they are ready. An 
        advanced radiography system that can automatically detect and 
        locate shielding in cargo and is also capable of directly 
        detecting and locating high density, high atomic number 
        materials such as nuclear threats is still under development.
    For these reasons, deployments of radiography systems to detect SNM 
would be done as a complement to passive detection systems.
    Question 3a. Over the last year, DNDO and its Government partners 
have developed a nuclear detection architecture, which is designed to 
assess how we, as a Nation, are doing to detect dangerous nuclear 
material. Part of that strategy includes an assessment of gaps that 
exist, and what technology might be needed to mitigate those gaps.
    How does DNDO work with the private sector--specifically the 
technology development community--to explain the architecture and the 
technology gaps that exist so that Government and industry can work 
together to develop solutions and better manage risk to our Nation?
    Answer. Within DNDO, there are several offices that work together 
and communicate with stakeholders in private industry. We communicate 
with the private sector through conferences and solicitations. We work 
with the technology development community to address gaps in the GNDA 
through our transformational research and development programs that 
foster innovative solutions to address capabilities gaps.
    One thing that DNDO has learned in its short existence is that 
industry, even without Government funding, often continues to develop 
commercial-off-the-shelf (COTS) detectors that may satisfy a greater 
range of requirements with limited additional development. DNDO has 
accordingly adjusted its strategy to investigate opportunities to 
address certain needs by developing customer-driven design 
modifications to currently available human portable equipment. In 
addition to these efforts, DNDO will develop human portable systems 
that transition successfully from our transformational research and 
development work. As we work at DNDO to improve our business models, we 
are looking at additional ways to leverage COTS technology wherever 
appropriate.
    Question 3b. Is DNDO charged with responding to a rad/nuc attack? 
If not, who has that responsibility?
    Answer. The 2009 DHS Integrated Planning Guidance assigns FEMA the 
responsibility to initiate a Response and Recovery program for a 
nuclear incident.
    FEMA will develop and issue a strategy for improving the national 
response and recovery from an IND attack by the end of fiscal year 
2009. The strategy will include prioritizing and addressing capability 
gaps identified by the fiscal year 2008 Nuclear Response and Short-term 
Recovery RPT; specifying intra- and inter-agency roles and 
responsibilities; identifying research and development and training 
needs; and addressing any conflicts that exist in current activities, 
plans, and procedures. FEMA will develop and implement a dedicated IND 
Response and Recovery Program within FEMA no later than fiscal year 
2010.
    Question 4. In your testimony you discuss DNDO's development of 
time-phased, multi-layered, global nuclear detection architecture 
(GNDA) because no single layer of defense can detect all radiological 
and nuclear threats.
    What are our detection and interdiction opportunities overseas? Are 
we operating beyond foreign seaports?
    Answer. DNDO supports other Federal efforts to improve detection 
capabilities beyond the Nation's ports of entry. In late 2006, DHS, 
DOE, and the State Department announced the Secure Freight Initiative 
(SFI)--an effort to build upon existing port security measures by 
enhancing the Federal Government's ability to scan containers for 
nuclear and radiological materials overseas and to better assess the 
risk of inbound containers. Phase I of SFI leverages the DOE Megaports 
Initiative, DHS Container Security Initiative (CSI), DHS domestic 
nuclear detection programs, and recent test deployments of relevant 
technology. Under SFI, all U.S.-bound containers are being scanned at 
three ports in Pakistan, Honduras, and the United Kingdom, fulfilling 
the 2006 SAFE Port Act requirement to couple non-intrusive imaging 
(NII) equipment and radiation detection equipment in order to evaluate 
the effectiveness of 100 percent scanning of U.S.-bound containers. 
Furthermore, DHS and DOE also expanded the deployment of scanning 
equipment to certain terminals in Port Busan (South Korea) and 
Singapore.
    DNDO has been working with SFI representatives to develop methods 
for analyzing the combined data produced by these installations, i.e., 
the combination of passive radiation detection scans from polyvinyl 
toluene (PVT) radiation portal monitors (RPMs), X-ray or gamma-ray 
images from NII equipment, and targeting information taken from 
manifests and other sources. DNDO is working in coordination with CBP 
to develop image analysis tools that could be included in the viewers 
that CBP officers use to scan SFI data. The groundwork for these 
cooperative efforts has been laid by DNDO's analytical work on the 
Global Nuclear Detection Architecture (GNDA). DNDO continues to work 
with DOE and partners in DHS to coordinate data fusion efforts and 
support development and acquisition of technology that meets the 
operational and performance needs of detection programs.
    To strengthen international rad/nuc detection, DNDO works with DOE, 
the Department of Defense, and State to engage other nations through 
the Global Initiative (GI) to Combat Nuclear Terrorism. Within the 
framework of the GI, DNDO has been working with foreign counterparts to 
jointly develop model guidelines for a global rad/nuc detection 
architecture that will focus on all the layers and associated pathways 
and can serve as a template for an integrated defense-in-depth 
strategy, should nations or regions decide to develop or strengthen 
their nuclear detection capabilities.
    Question 5. I support leveraging commercial-off-the-shelf (COTS) 
technology wherever appropriate and I'm pleased to hear you say that 
this is part of DNDO's long-term business model. I also agree with 
``piggy-backing'' on existing programs to enhance our security i.e., 
the radioactive isotope identification device (RIIDs).
    Are these RIID devices providing CBP with the capability to detect 
radiological and nuclear threats? What improvements are on the horizon?
    Answer. At ports of entry, current-generation poly-vinyl toluene 
(PVT) RPMs are typically installed in a primary scanning location to 
detect the presence of radiation in cargo and vehicles. CBP operates 
additional RPMs and handheld radioisotopic identification devices 
(RIIDs) in secondary scanning locations to further investigate alarms 
originating in primary and identify the specific source of the 
radiation detected. Test campaigns have identified limitations in the 
hardware and algorithms of the current RIID systems to effectively 
identify nuclear materials over the ranges of shielding that are 
relevant for passive radiation detection.
    To improve the capabilities of handhelds, DNDO has several 
development programs underway in conjunction with our end-users. The 
human-portable systems under development will be targeted for use by 
CBP Office of Field Operations and Office of Border Patrol. Our human-
portable system programs seeks to expand the spectrum of detectors 
available to end users by: (1) Investigating existing commercially 
available systems and tailoring them to better meet the needs of 
operators; (2) developing cutting-edge technology when current systems 
are inadequate to meet customer requirements; and (3) conducting 
systems development efforts for maturing technologies that transition 
from ATDs. Next-generation systems will provide enhanced radiation 
detection and threat source identification, localization, and 
notification capabilities to aid end-users in mitigating nuclear 
threats.
    The first human-portable detection technology expected to 
transition from an ATD to a systems development phase is the 
Intelligent Personal Radiation Locator (IPRL), a pocket-sized 
spectroscopic radiation locator that detects radiation, delineates 
source type, and locates the source.

                                 <all>

</pre></body></html>
